<html>
<title> - MAINTAINING U.S. LEADERSHIP. IN SCIENCE AND TECHNOLOGY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      MAINTAINING U.S. LEADERSHIP
                       IN SCIENCE AND TECHNOLOGY

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 6, 2019

                               __________

                            Serial No. 116-4

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://science.house.gov
              
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-402PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6a1a052a091f191e020f061a4409050744">[email&#160;protected]</a>                 

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                NEAL DUNN, Florida
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  VACANCY
CHARLIE CRIST, Florida               VACANCY
SEAN CASTEN, Illinois
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                         
                         
                         C  O  N  T  E  N  T  S

                             March 6, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................    10

Statement by Representative Frank D. Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    14

                               Witnesses:

Dr. Marcia McNutt, President, National Academy of Sciences
    Oral Statement...............................................    18
    Written Statement............................................    20

Dr. Patrick Gallagher, Chancellor, University of Pittsburgh
    Oral Statement...............................................    27
    Written Statement............................................    29

Dr. Mehmood Khan, Vice Chairman and Chief Scientific Officer, 
  PepsiCo; and Chair, Council on Competitiveness
    Oral Statement...............................................    36
    Written Statement............................................    38

Discussion.......................................................    50

             Appendix I: Answers to Post-Hearing Questions

Dr. Marcia McNutt, President, National Academy of Sciences.......    82

Dr. Patrick Gallagher, Chancellor, University of Pittsburgh......    87

Dr. Mehmood Khan, Vice Chairman and Chief Scientific Officer, 
  PepsiCo; and Chair, Council on Competitiveness.................    94

            Appendix II: Additional Material for the Record

Document submitted by Representative Michael Cloud, Committee on 
  Science, Space, and Technology.................................   102


 
                      MAINTAINING U.S. LEADERSHIP.
                       IN SCIENCE AND TECHNOLOGY

                              ----------                              


                        WEDNESDAY, MARCH 6, 2019

                  House of Representatives,
       Committee on Science, Space, and Technology,
                                           Washington, D.C.

    The Committee met, pursuant to notice, at 2:35 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Eddie 
Bernice Johnson [Chairwoman of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Chairwoman Johnson. Committee will come to order. Before I 
begin my opening statement, let me just apologize for being 
late. We were on the floor, and I know that there are Members 
en route, and I'll try to get my breath so we can get started.
    Good afternoon, and welcome to our distinguished panel of 
witnesses. We called you here today because of your decades of 
collective experience and wisdom about the U.S. science and 
technology (S&T) enterprise, and I look forward to learning 
from you. I've always said that there is no more important 
Committee in Congress than the Science Committee when it comes 
to determining our Nation's future. In this Committee, we have 
an opportunity to look beyond the politics of today to develop 
the best policies for tomorrow. This afternoon the Committee 
will discuss key opportunities and challenges as we develop 
legislation, and lead discussions within Congress, on what we 
need to do to secure our future prosperity.
    We will hear about the current state and history of S&T 
enterprise, the increasing international competition, and what 
that means to our economic and national security, how we can 
best educate and train a skilled workforce for the 21st 
century, and how the government, universities, and private 
sector can best partner to maintain U.S. leadership. According 
to data reported by the National Science Foundation (NSF), the 
U.S. now ranks number 11 in the world in research intensity. We 
are behind several countries in R&D (research and development) 
as a share of the GDP. China has surpassed us in total research 
publication output, and East Asian countries as a group have 
surpassed the U.S. In total number of R&D dollars invested, the 
U.S. was still leading in 2016, which is the latest data that 
the NSF has reported, but China likely surpassed us last year.
    It has also been a given that the U.S. leads in investments 
in fundamental research at our universities and national labs, 
but we are close to dropping out of the top ten, even in basic 
research investments. The numbers are sobering, but they don't 
tell the full story, so I look forward to hearing from our 
experts about what this all means.
    When we look at the state of STEM (science, technology, 
engineering, and mathematics) education and STEM workforce in 
the U.S., we also have cause for concern. Our students have not 
shown improvements in math or science assessments in the last 
decade, and they continue to perform well behind the average 
for top-performing countries internationally. There are 
significant achievement gaps across economic, and racial, and 
ethnic lines. The underrepresentation of minority groups 
persists through STEM-degree attainment, and participation in 
the STEM workforce. While women are doing much better than they 
used to, they continue to be significantly underrepresented in 
fields key to U.S. competitiveness, including computing and 
engineering. There is high demand for STEM skills that don't 
require a 4-year degree, but there is still a stigma associated 
with these jobs, even though they pay well.
    By 2050, today's minorities will be the majority. Simple 
math tells us that if we do not increase the number of women 
and minorities earning STEM degrees and participating in the 
STEM workforce at all levels, we will experience dire workforce 
shortfalls in the not-too-distant future.
    Some companies in the technology sector tell us that the 
shortfall is already here. I'm an optimist. These numbers are 
cause for concern, but we should also view them as a rallying 
cry for action. Our children and grandchildren are counting on 
us. We have many ideas on our agenda already, but I'm sure 
today's hearing will give us more. I'm confident that we will 
hear good ideas from the scientific experts, and from my 
colleagues on both sides of the aisle, and I look forward to 
today's discussion.
    [The prepared statement of Chairwoman Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. With that I yield back, and recognize 
Mr. Lucas.
    Mr. Lucas. Thank you, Chairwoman Johnson, for holding this 
important hearing on Maintaining United States Leadership in 
Science and Technology. Science and technology are central to 
America's national defense and economic security. Our Nation's 
founders understood that science was fundamental to our 
Nation's ability to prosper. Article 1 of the Constitution gave 
Congress the power to promote the progress of science. 
Americans are pioneers, and their spirit has always driven our 
support for science. In 1862, President Lincoln signed a land 
grant bill to fund a system of industrial colleges, one in each 
State, to conduct valuable research. I'm a proud graduate of 
one of those land grant institutions. He also signed the 
charter that created the National Academy of Sciences (NAS).
    The 1930s, 1940s, and 1950s saw exponential increases in 
our scientific capacities, and the creation of the National 
Science Foundation, NASA (National Aeronautics and Space 
Administration), the Department of Energy, and the National 
Laboratories. Basic research forms the foundation of 
discoveries that fuel private-sector development and 
commercialization. It also provides a training ground for our 
Nation's scientists, engineers, and other STEM workers. 
Companies across the country are desperate for workers with 
skills to fill 21st century jobs. The United States is the 
world's largest research and development investor. U.S. 
Government and industry spent a combined $511 billion in 2016, 
generating over $860 billion for our Nation's economy, while 
supporting over 8 million jobs.
    The basic research our government supports is foundational 
to our economic success. It allows us to stay at the forefront 
of cybersecurity, medical treatments, agricultural production, 
and technology exports. Government-funded research is 
translated into technology that supports our lives on a daily 
basis. For example, government supported research has given us 
a better understanding of the relationship between food 
production, water, energy, and making agriculture more 
productive. That benefits the farmers and ranchers in my home 
State of Oklahoma, of course, but it also improves our food 
supply, and reduces consumer food prices. A gene editing 
technique that allows for precise interventions that 
revolutionize healthcare by treating genetic disorders, and 
creating targeted cancer therapies. It also has the potential 
to improve our food supply by enhancing crop production, and 
improving livestock health.
    Americans in every part of the country can access high-
performing wireless networks thanks to the NSF-funded research, 
which provided the basis for 4G wireless communications. And 
Mammoth Trading, an online market system to lease water rights 
grew from NSF-funded research on groundwater pumping rights. 
Farmers now enjoy better risk management tools, lower costs for 
water reallocation, and increased productivity and improved 
water sustainability. I can go on and on, but I think it's 
clear that America's technology supremacy is a pillar of our 
economy.
    Unfortunately, our dominance is under threat. China is 
narrowing the gap, and may surpass the United States in total 
R&D spending this year. I believe the Federal Government has a 
responsibility to prioritize basic research and development, 
and this is not an easy task as we face enormous budget 
challenges, but it can be done. On a bipartisan basis this 
year, Congress supported $151.5 billion in Fiscal Year 2019 for 
Federal R&D, a 6 percent increase, and the highest point ever 
in inflation-adjusted dollars. As the Ranking Member of the 
House Science, Space, and Technology Committee, I'm committed 
to working with Chairwoman Johnson and the appropriators to 
continue to meet this challenge. To achieve this, however, I 
believe we need to collectively do a better job of explaining 
why science matters to all Americans. We need to break down the 
barrier between the ivory tower of academia, the hallways of 
Silicon Valley, and the Main Street of Cheyenne, Oklahoma.
    My family has lived and farmed in Oklahoma for 100 years. 
When I look out my front porch, I can see a living laboratory 
of what science has done to improve American life. From the 
disease-resistant wheat that grows on my farm, to the vaccines 
that keep our cattle healthy, to the wind turbines on the 
horizon that provide a third of the State's electricity, these 
are real, tangible ways that science and technology have made 
our lives better. And it would not have happened without the 
longstanding government, academic, and industry research 
ecosystem that is the envy of the world.
    I look forward to hearing from our distinguished panel of 
witnesses about how we can work together to meet this 
challenge, and to ensure that America continues to lead 
technological advancement. And with that, I yield back the 
balance of my time, Madam Chair.
    [The prepared statement of Mr. Lucas follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much, Mr. Lucas. We will 
now introduce our witnesses.
    We have Marcia McNutt, President of the National Academy of 
Sciences. She has a Bachelor's in Physics from Colorado 
College, a PhD in Earth Sciences, Scripps Institute of 
Oceanography, and is a geophysicist, and the 27th--second 
President of the National Academy of Sciences. From 2013 to 
2016 she was Editor-in-Chief of Science journal. She was 
Director of the U.S. Geological Survey (USGS) from 2009 to 
2013, during which time USGS responded to a number of major 
disasters, including the Deepwater Horizon oil spill. For her 
work to help contain that spill, she was awarded the U.S. Coast 
Guard's Meritorious Service Medal.
    She is a Fellow of the American Geophysics Union (AGU), the 
Geological Society of America, the American Association of the 
Advancement of Science, and the International Association of 
Geodesy. Ms. McNutt is a member of the American Physiological 
Society, and the American Academy of Arts and Sciences, and a 
foreign member of the Royal Society of the U.K., and the 
Russian Academy of Sciences. In 1998 she was awarded the AGU's 
Macelwane--Macelwane Medal for research accomplishments by a 
young scientist, and she received the Maurice Ewing Medal in 
2007 for her contributions to deep sea exploration. Thank you 
for being here.
    Following Ms. McNutt, Mr. Patrick Gallagher. As the 
University of Pittsburgh's 18th Chancellor, Mr. Gallagher 
directs one of the Nation's premiere public institutions of 
higher education and research. In this role, he oversees a 
community on the move of more than 34,000 students at five 
distinct campuses. He also supports the work of more than 
13,000 faculty and staff members, who are committed to 
advancing the University's legacy of academic excellence, 
community service, and research innovation. Under his 
leadership, Pitt has strengthened its status as one of the 
Nation's premiere public institutions for higher education and 
research, including being named the top public university in 
the Northeast by The Wall Street Journal and Time's Higher 
Education.
    Prior to his installation at Pitt, Mr. Gallagher spent more 
than 2 decades in public service. In 2009 President Barack 
Obama appointed him to direct the National Institute of 
Standards and Technology (NIST). While in this role, he also 
served as Acting Deputy Secretary of Commerce before leaving 
for Pitt in the summer of 2014. Today he serves as the Chair of 
Internet2, and is active as a member of boards and forums, 
including the NCAA Division I President Forum and the Allegheny 
Conference of Community Development. He also completed terms of 
a wide range of community boards and committees, including 
President Obama's 12-person Commission on Enhancing National 
Cybersecurity in 2016. He holds a PhD in Physics from Pitt--
it's Pitt, Pitt, Pitt, isn't it? And a Bachelor's Degree--I'm 
just jealous. I'm from Texas. A Bachelor's Degree in Physics 
and Philosophy from Benedictine College in Kansas. Thank you.
    Mr. Mehmood--Dr. Mehmood Khan, the Vice Chair and Chief 
Scientific Officer of PepsiCo. He is PepsiCo's Vice Chair and 
Chief Scientific Officer, head of global R&D. PepsiCo's 
businesses make hundreds of foods and beverages that are 
respected names globally. Prior to joining PepsiCo, Dr. Khan 
was President of the Takeda Global Research and Development 
Center, overseeing Takeda Pharmaceuticals Company's worldwide 
R&D efforts. Previously, he was an attending--he was attending 
staff endocrinologist at Mayo Clinic and Mayo Medical School in 
Rochester, Minnesota, serving as director of diabetes, 
endocrine trials unit.
    Dr. Khan has been recognized by academic and international 
organizations, including honorary doctorate degrees, the Ellis 
Island Medal of Honor, Career Achievement Award, and Pinnacle 
Award, and is an elected fellow of the Royal College of 
Physicians in London. He serves as Chair of both the U.S.-
Pakistan Business Council, and the U.S. Council of 
Competitiveness in Washington, D.C., and is a member of the 
board of FFAR, U.S. Department of Agriculture, and the Visiting 
Committee for Advanced Technology at the National Institute of 
Standards and Technology. He also serves as judge for the 
Lemelson Innovation Prize at the Massachusetts Institute of 
Technology. Thank you for being here.
    We will begin with our first witness, Dr. McNutt.

                 TESTIMONY OF DR. MARCIA MCNUTT,

         PRESIDENT OF THE NATIONAL ACADEMY OF SCIENCES

    Dr. McNutt. Well, Chairwoman Johnson, and Members of this 
distinguished Committee, thank you for the opportunity to 
testify today. As you've heard, I'm Marcia McNutt, President of 
the National Academy of Sciences, an organization that was 
chartered by Abraham Lincoln as non-partisan advisors to the 
Nation. I'd like to discuss what I believe is one of the most 
important issues facing our Nation, the health of the U.S. 
innovation enterprise, and the implications for our long-term 
global competitiveness.
    Allow me to begin with the following question. How do we 
gauge the competitiveness of American science and technology on 
an international scale? So it's true that the U.S. is the world 
leader in Nobel Prizes. We also lead in creating new industries 
from science discoveries, and in translating basic science into 
novel medical therapies that improve our lives, but these are 
all lagging measures of our competitiveness. An operator of a 
manufacturing plant would not wait until products stop coming 
off the assembly line to realize that she needs to order more 
raw materials. In the same way, the U.S. cannot afford to wait 
for a decline in top international awards, or until our high-
tech industries stagnate to realize that we've already lost our 
edge.
    So then, what are the leading measures of our 
competitiveness that we should be tracking, and how are we 
doing in those leading measures? The first measure is 
investment in research and development. Well, thanks to the 
farsightedness of this Committee, and Congress in general, the 
U.S. is doing OK, but I'm concerned. You've already heard that 
China's catching up, and may surpass us, and with the 
sequestration caps, we could fall behind. And there is nothing 
more disruptive to the U.S. science enterprise than huge swings 
in science budgets. That could be crippling to us. Therefore, 
we can't stop now in continuing our investment.
    Also, when I ask people from all perspectives, whether it's 
young researchers, established researchers, or industry 
consumers of government-funded science, where we are 
underinvesting, they say it's in high-risk, high-reward 
research. Too many of the Federal funding programs have become 
overly conservative, such that only incremental research that 
looks like a sure bet can get funded. This is not the sort of 
research that leads to the breakthroughs that fuels tomorrow's 
new industries.
    A second indicator of our competitiveness in science and 
technology is the extent to which the world's most brilliant 
young researchers seek to train and work in the U.S. research 
enterprise. Without a doubt, we are in a global competition for 
the best talent. What has put the U.S. on top in science and 
technology is that for decades the world's best and brightest 
have flocked to our universities to be educated, and the most 
capable of these have stayed in it to enrich our enterprise. So 
the question is, is that still the case today? The answer is, 
sadly, no. Applications for graduate school in science and 
engineering departments nationwide from abroad are in the 
decline. There is a strong perception, if not the reality, that 
international students are not welcome here.
    On top of that, international students, even if we train 
them here, are now being lured back home by excellent jobs, 
first-class equipment, and better funding. While we should 
still try to attract the most promising young scientists, no 
matter what their national origin, and work to keep them here, 
if they are the best, we should resign ourselves to the fact 
that we will no longer have the same supply of talent from 
overseas. I agree completely with Chairwoman Johnson that we 
have to draw upon the full human resources we have here at 
home. It used to be that science was a white male occupation. 
Thanks to concerted effort, now a significant faction of 
excellent women scientists populate the ranks in many science 
departments. Unfortunately, science still fails to attract 
minorities to the field. We cannot meet our need for top 
scientists if we do not aggressively attract a workforce that 
reflects the full diverse talent of America.
    While the U.S. needs to remain the top competitor, at the 
same time, I believe strongly in scientific cooperation. There 
exists a certain scale of science that transcends the ability 
of a single nation to invest sufficiently to solve problems at 
the cutting edge. All problems benefit from such cooperation, 
but no one lines up to cooperate with the B team. If we lose 
our edge as the A team, opportunities for international 
cooperation will suffer as well. The U.S. has already ceded 
leadership in a number of areas. Why would we cede leadership 
in science? It benefits our quality of life, and it feeds our 
innovation machine. We can keep our edge if we invest in high-
risk, high-reward research, attract a more diverse scientific 
workforce, and keep our doors open to international talent. 
Thank you.
    [The prepared statement of Dr. McNutt follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Now Dr. Gallagher.

               TESTIMONY OF DR. PATRICK GALLAGHER,

           CHANCELLOR OF THE UNIVERSITY OF PITTSBURGH

    Dr. Gallagher. Thank you. Chairwoman, and Ranking Member 
Lucas, and all the Members of the Committee, you know, after 
being in front of this Committee regularly for many years, it's 
a distinct pleasure to be back before you today to talk on this 
important topic of Maintaining U.S. Leadership in Science and 
Technology. As investments, the investments we make in science 
and technology are among the highest payback investments that 
any nation can make. And, in fact, the United States owes much 
of its current economic leadership, military superiority, high 
standard of living, health and safety for our citizens, energy 
security, and our dominant geopolitical leadership position to 
these S&T investments. By any measure, the return on investment 
has been remarkable.
    But the United States faces a dramatically different global 
S&T enterprise now. Instead of standing alone, other nations 
have recognized the importance of R&D to their industrial 
competitiveness, and so any assessment of U.S. leadership must 
be a comparison of the U.S. S&T enterprise against this 
changing global enterprise. And the rapid growth of science and 
technology in these other countries should cause us to re-
evaluate and re-examine our approach.
    More than anything else, our S&T success is built on 
talent, so leadership must be assessed by the quantity, the 
quality, and the usefulness of that talent to our national 
needs. We must face these international competitive pressures 
first by remaining an attractive location for worldwide talent. 
America's university system is immensely capable, which is why 
the United States has been the destination of choice for the 
best and brightest international students for decades. But now 
our competitors are making a concerted effort to attract these 
same students, and they are beginning to succeed.
    UNESCO (United Nations Educational, Scientific and Cultural 
Organization) data show that the share of the world's 
internationally mobile students enrolled in the United States 
fell by 25 percent between 2000 and 2014. Our universities must 
remain welcoming, engaging, and respectful of higher--of 
international students, employees, and visitors regardless of 
their country of origin. Indeed, our competitiveness depends on 
it. Global leadership in S&T is as essential to U.S. interests 
as it has been in the past, but we need to examine whether some 
of our long-held assumptions remain valid in this air of 
increasing global competition.
    First, you know, training the next generation of scientists 
and engineers is an essential goal of R and--Federal R&D 
policy. In fact, I would say, arguably, no other investment has 
a larger effect on the ultimate size, quality, and composition 
of the U.S. talent in the United States. But training PhDs and 
post-docs is incredibly expensive, and, so far, unavoidably 
time intensive. In the past, we made these decisions based on 
our own needs, and not on the context of what others were doing 
around us, and we have not yet found ways to link industry's 
workforce needs effectively and efficiently to the rate at 
which Federal R&D investments can or should change. If--failing 
to do this, we risk severe oversupplier shortages in science 
and technology workforce.
    Second, we need to develop more effective ways to reconcile 
our government's appropriate goal of supporting U.S. economic 
competitiveness with a largely segmented R&D enterprise. A wide 
and growing--the--two issues jump out in this space. There is a 
wide and growing gap between the public sector-funded and 
university led world of basic research with the private sector-
funded and industry-led R&D space there. Indeed, many of the 
largest R&D performers in industry are now multinational 
companies, with a footprint in multiple countries, so they 
benefit from the S&T investments around the world.
    And, finally, we can no longer assume a hegemonic American 
dominance of global R&D. The two most populous countries in the 
world, China and India, are making enormous strides in their 
development, and this is no accident. They maintain deliberate 
and sustained strategies to mimic U.S. S&T policy, and they are 
now reaching a scale comparable to ours. Both are becoming much 
more economically and technically competitive, and they will 
remain so. For this reason, we need to have a better collective 
understanding and situational awareness of the global R&D 
sector. Other countries are very systematic in their efforts to 
collect, translate, and analyze our science policy documents, 
in fact, much more so than we are of theirs. That is a 
shortcoming that should be corrected.
    In the future, even the United States will not be able to 
afford leading every science and technical field, so we will 
need to be more sophisticated in identifying those areas where 
the U.S. must have the leadership position, and where a 
position of parity with the research capacity of our 
competitors, or even a posture of careful watching, can be 
maintained. So, Madam Chairwoman and Members of the Committee, 
I would once again like to thank you for the opportunity to 
appear before you this afternoon, and I look forward to you--as 
you tackle these important issues, and I'm looking forward to 
your questions. Thank you.
    [The prepared statement of Dr. Gallagher follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you, Dr. Gallagher. Dr. Khan?

                 TESTIMONY OF DR. MEHMOOD KHAN,

           VICE CHAIRMAN AND CHIEF SCIENTIFIC OFFICER

                           AT PEPSICO

    Dr. Khan. Thank you, Chairwoman Johnson, and Members of the 
Committee. I am the Chairman of the U.S. Council on 
Competitiveness, and I just want to mention, as a council, 
we're nonpartisan members of an organization of 150 CEOs, 
university presidents, labor leaders, national laboratory 
directors, founded in 1986. We're dedicated to development of 
impactful policies and actions that boost U.S. productivity, 
drive inclusive prosperity for every American, and ensure the 
success of U.S. goods and services in the global marketplace. 
That context, and the fact--and I won't repeat what you've 
already heard, but I'll give an industry perspective. I've had 
the honor of leading R&D in three different industries, and 
starting my career as an academic in a lab that was funded by 
government research dollars, and I represent just about every 
scientist that you're going to find in industry in this country 
at some point will actually have their roots, and their 
training, at an academic institution or a national laboratory 
that was funded by the government.
    So this is not a discussion about just supporting research 
in an academic setting, or research in a national laboratory 
setting, but ultimately, in the absence of that, we actually do 
not have a pipeline of scientists, and STEM graduates, and STEM 
trained individuals who will actually work in global companies, 
like mine at PepsiCo, and as I just announced this week, I'm 
retiring from my job at--as Vice Chairman of PepsiCo to take 
over as CEO of a startup biotechnology company in Cambridge, 
Massachusetts. And that amazing ecosystem, and several 
ecosystems around this country that are innovation hubs, rely 
on this pipeline of talent, and the thousands and tens of 
thousands of jobs that not only big companies create, but small 
startups, which are the primary engine of new job creation.
    So what is different about the past versus today? You've 
heard about competitors. I won't repeat that, the fact that we 
are losing the lead in investment, but what I want to add to 
that and build on is the fact that the pace of change in 
science and technology has accelerated dramatically, even in my 
career over the last 30 years. Not only has it accelerated, but 
we are now seeing large disruptors. What do I mean by that? 
Well, let's take a look at what's happened, where we have 
traditionally led in--as U.S. technology with this digital 
revolution, which I would argue the U.S. ecosystem essentially 
created.
    As a result of that, we're seeing vast deployment of 
sensors, the Internet of Things, artificial intelligence, 
biotechnology, gene editing, nanotechnology, autonomous 
systems, we all hear about this, but the fact is these are 
converging, and no longer individual disciplines, but when it 
comes to application into the real world, they actually are 
converging in their use, and being leveraged. And if we do not 
continue to develop the people who will use the next generation 
of these, we will not only have a workforce that's not trained, 
but a workforce that can't leverage the successes of this.
    Unfortunately, as I look at it as a recent Member of the 
Oversight Committee at NIST, what really surprised me, in the 
early days of learning, is that more than half the facilities 
at NIST, on its two main campuses, are in poor to critical 
condition, and, unfortunately, that is reflected in many 
national laboratories around this--around the country. These 
were our--have been, and still in many ways are, the crown 
jewels of so much of the work that we've done in the past. We 
absolutely need to invest in them, because industry relies on 
those basic discoveries, for us to convert them. What I always 
coin is, we take the inventions from the academic and national 
laboratory system and make them into innovations. And that 
bridge, and that partnership of invention to innovation has 
been what's been driving not only the academic system, but our 
industry, and ultimately our commerce.
    What are the options? And let me touch very briefly on--we 
can get into this in the discussion. As a council, we continue 
to recommend a number of steps. We Americans need to take many 
steps, including growing the number and diversity of STEM 
graduates, STEM educated workforce. You've heard that. We need 
to create greater opportunities for experiential learning, such 
as apprenticeships. Not everything needs a degree, and not 
everything needs a graduate degree. We need a workforce that is 
trained in STEM across the entire spectrum, but ultimately 
those will be developed and trained in the academic environment 
that we have, starting from kindergarten up to 12th grade, then 
college, and on to graduate school.
    In conclusion, Americans are recognizing this. A number of 
surveys have shown that this is a high priority for our 
citizens. And, with this in mind, the Council has launched a 
National Commission on Innovation and Competitiveness Frontiers 
to double down on our efforts to optimize the Nation for this 
new unfolding innovation reality. I'm proud to serve as co-
chair of this Committee, alongside Professor Michael Crow, 
President of Arizona State University, and over the next 3 
years the commission is going to assemble top minds from 
industry, academia, labor, and the national laboratories to 
sharpen national, regional, and local leaders' understanding of 
this dramatically changing innovation ecosystem.
    But I will leave you with one statistic which keeps me up 
at night the most, and that is, as a leader of a large industry 
R&D and small industry R&D, the average age of a science 
graduate working in industry, across all industries in the U.S. 
today, is already over the age of 50. While I have nothing 
personal against being over the age of 50, I can tell you that 
that means, within a decade, approximately half of our science-
trained graduates in industry will be retirement eligible. We 
have no line of sight today on how to replace them. We need to 
figure out the policies, bipartisan, collectively, and 
ultimately, if my colleagues to my right do not have the 
resources to invest, I don't have the pipeline in the future to 
keep our companies running. Thank you, Ms. Chairwoman.
    [The prepared statement of Dr. Khan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much. We'll begin our 
first round of questions, and I want to say to Members of the 
Committee that are present that if you have statements--opening 
statements, you can be--place them in the record, and each of 
us will have questions as we go around.
    [The prepared statement of Mr. Posey follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    It's hard to determine, actually, where I want to go, but 
I'd like each of you to comment. I feel, frankly, that we're at 
a crossroads, and the next 10 to 20 years will determine 
whether we're going to remain competitive. And try to see if 
you can give me three or four major points that we must 
accomplish to catch up and stay ahead of our competitors 
outside this country. I'll start with Dr. McNutt.
    Dr. McNutt. So I mentioned three of them, and the three 
being we have to start recruiting, in a way that we haven't 
been able to so far, a fully diverse workforce domestically. 
The second one is we have to keep our doors open to the very 
best and brightest internationally, and not inadvertently turn 
them away. Third, we have to maintain an investment in--
financial investment in the R&D enterprise, particularly in 
high-risk, high-reward work. Whether it's basic research or 
applied research, it doesn't matter, but that's the kind of 
work--I talk to so many people who gave me examples of 
breakthroughs that were turned down by our Federal agencies, 
and they had to cobble together other funding in order to get 
it to happen.
    So I think those are three top ones, but I also would--now 
that you asked me for more, I would also say that one reason 
why so many of these international students look so good is 
that they have education programs that start at 5 years old, 
training these students so that they are super prepared for a 
career in science and technology, and they do not stop anywhere 
through their education program. And we don't do that as well.
    Chairwoman Johnson. Thank you. Dr. Gallagher?
    Dr. Gallagher. So, Chairwoman, I'll actually answer as if I 
was sitting in your chair a little bit, in terms of what the 
priority should be. I think--I agree with you, this is a 
pivotal time. I would say we need a goal. One of the 
interesting things I would say is that one of the reasons that 
these developing countries have made such progress is they lit 
their hair on fire, and made this a national priority, from 
their perspective, to copy, emulate, and to scale up a U.S.-
style S&T enterprise in their countries. It--they are top 
priorities. They have mobilized their resources to do it, and 
it reminds me of times when the United States did the same 
thing. Our post-Sputnik response was a massive R&D investment 
and commitment that went beyond just the funding, but to 
getting the country excited and focused on STEM and production, 
and I think it's time for a goal, a national goal, for why this 
is important.
    The second thing I would say is that the U.S. S&T 
enterprise has been based on a partnership. It has always been, 
for the last 70 years, a partnership between industry, 
universities, and the Federal Government. Our national labs 
were set up when industry mobilized and managed them for a 
dollar to meet national needs. The Federal Government agreed to 
provide the basic support to--on science. The universities 
agreed to be both basic science performers, and to train the 
next generation, and I think we have to look to the health of 
that partnership. I think there are signs of it pulling apart a 
little bit.
    And the last one is that I don't think there's a silver 
bullet easy fix to this. Our competitors are doing this by 
writing 5-year plans and taking a sustained strategy over time. 
So I think what we need, in addition to that goal, is a 
sustainable commitment. Hopefully a bipartisan commitment, but 
certainly a national commitment about why this is in our best 
interest, why we make these investments in our national 
treasure, and why this is so important to our vitality as a 
country.
    Chairwoman Johnson. Thank you. Dr. Khan?
    Dr. Khan. Let me build on my colleagues. I, again, would 
emphasize the investment in government-funded research, but in 
particular foundational research, as the pipeline of the next 
generation of ideas, and we need to prioritize. We can't do 
everything, but we have to figure out what is of strategic 
importance to us as a country. I would emphasize not only the 
increasing training required, and diverse, but we have to come 
up with new training models. We cannot fill this gap that is 
coming in our technical workforce in the next 5 to 10 years 
using a traditional model. And I think this is where industry, 
public and private partnerships, have to come together and say, 
are there greater efficiencies to be had in our educational 
model that will fulfill our workforce requirement? There are 
thousands of jobs available today which aren't being filled 
because we don't--we have a skills gap, and those jobs need to 
be filled today. It takes years to create, so we have to do 
both. And how do we do that?
    And the third is, do we have the policy framework for the 
right public-private partnerships and transfer of research and 
knowledge efficiently and as fast as possible so that we can 
benefit as a society from the investments being made by 
government. A lot of great ideas that sit within our national 
laboratories within our system that we in industry could use 
today, and commercialize, and bring economic value to the 
country. What would it take to do that?
    Chairwoman Johnson. Thank you very much. Now I'll call on 
Mr. Lucas.
    Mr. Lucas. Thank you, Madam Chairwoman. And, continuing on 
that line of discussion, Dr. Khan and Dr. Gallagher, in 
Oklahoma my universities tell me that they have 2,000 open 
engineering positions, jobs, in the State, more than the local 
engineering departments can currently produce. Continuing down 
this course about how industry and academia, from their 
perspective, can work together to meet that demand--and we're 
talking about Oklahoma. Two thousand more engineering jobs than 
they can create the engineers for. Would you continue to expand 
on where you were headed there?
    Dr. Khan. Well, I think there's--there are a number of 
approaches we can take, and each has a, you know, each 
situation is different. So, with that context, some cases we, 
as an industry, are going to have to look and say, what level 
of education is required to fill a certain job, or can we 
retrain an individual to that specific job? But then, if we're 
going to retrain them, through an accelerated program, to be 
able to do the job, who do we partner with? What will it take? 
How do we do that? I'll give an example. I can't--we have 
challenges filling jobs with food safety--just to do auditing. 
Can we partner with a university? We at PepsiCo recently just 
partnered with a university and said, can we do a 12-month 
training program in order to fulfill the needs? It's not a 4-
year degree, but can we, in 12 months, get them ready for that? 
There are different models. That's one.
    The second is can we train people in the job to get 
academic credentials? So while they are fulfilling their day 
job, what will it take for them to get the advanced 
credentials, and which universities can we partner with? So 
I'll give you those two as examples, because many of these are 
working people with families. I have many employees, in 
particular women, who are at a career stage where, early in 
their career, they did not go and get an advanced degree. Now 
the children have grown up, but they can't leave the workforce. 
I can't afford for them to leave, and they can't economically 
do it. What will it take to get a graduate degree or a Master's 
in Engineering on the job? Using our own laboratories, maybe--
these are all ideas. I think we have to work together to 
explore those, but I'll defer to Dr. Gallagher.
    Mr. Lucas. Dr. Gallagher?
    Dr. Gallagher. Your question reminds me--I remember when I 
was in the Commerce Department, and I was talking with some 
CEOs, and they sounded just like your question. You know, 
there's this huge demand, we can't find this talent. And then 
the next day I was talking with some labor economists, and they 
said, no, that's not true. I said--they said, those guys aren't 
right, because if you look at the salaries and other things, 
we're seeing no signs of a workforce shortage. And, of course, 
there's data that suggests that as well. I think this mismatch 
we have about being--we all want to be market sensitive. 
Universities want to produce what's needed, and there seems to 
be a lot of evidence that those market signals are not very 
good right now.
    One of the things that may be happening is that fields like 
engineering, that are actually quite broad--when industry says 
they need engineers, they're actually talking about a specific 
type of engineer, and there's a gap between sort of the general 
degree and the actual skillset that's needed. And so this--
there's a gap between the educational space and the workplace. 
The one obvious place where that can be addressed is to bring 
those two worlds closer together. And that's why I said this 
partnership model was built when--I know when I went to school, 
the companies that were doing R&D were right in our labs, 
collaborating with us. There was a lot of shoulder rubbing. And 
I think, whether it's the undergraduate level, or up through 
the graduate and professional training level, we have to make 
sure that those two worlds sit side by side. That's probably 
the best way to address this gap.
    Mr. Lucas. In my remaining time, to anyone on the panel who 
would care to discuss it, in my opening statement I mentioned 
the need to better explain the value of the Federal investment 
in science and technology to all of our fellow Americans. From 
the role I sit in on this side, I have to justify every penny 
when we deal with--as authorizers with the appropriators, and 
we deal with the various taxpayer-sensitive groups back home, 
and we deal with the citizens who come to our town meetings. 
Just for a moment, if anyone would care to touch on this, how 
we do a better job of explaining the story, the connection, 
that science has to the real world for our folks back home, the 
real people?
    Dr. Khan. Let me give two very easy--one is look at the 
competition. If there wasn't value, then--just about every 
emerging country and developed country is aggressively 
competing for R&D centers. As a global company, as a global 
organization, wherever I go, the first question I get is, will 
you build an R&D facility in this country? And that takes a 
very high priority, because R&D investment not only creates the 
number of R&D jobs, but the domino effect, and knowledge 
transfer, and the ability, then, to leverage it into the 
economy comes right at the top of the list. So that's number 
one.
    The second is the fact that, as we look at all of the new 
jobs that are being created in this country, as we speak today, 
the vast majority are on the back of new technology that was 
actually developed in this country. The Internet, developed by 
the Federal Government. The digital age. Everything--the 
examples I gave you all came out of technology that eventually 
became industries.
    Mr. Lucas. Panel's been very insightful. I thank you, Madam 
Chairman, yield back the balance of my time.
    Chairwoman Johnson. Thank you, Mr. Lucas. Now I call upon 
Mr. Lamb.
    Mr. Lamb. Thank you, Madam Chairman, and I want to extend a 
special welcome to Chancellor Gallagher, the Chancellor of the 
University of Pittsburgh, and I, like you, remembered to wear 
my Pitt colors today, so we're very proud and happy to have you 
here. You have done a fantastic job, and your testimony today 
highlighted a couple of important things, one of which is the 
fact that we have a long way to go when it comes to advanced 
manufacturing, and preparing that pipeline of talent, the 
material science, but also preparing the workers themselves who 
will be taking those jobs in the future. Obviously, I would 
love to see Western Pennsylvania play a leading role in that, 
as I know you would.
    One of the things that you stressed in your testimony, and 
the Brookings report that you referred to talked about it as 
well, is the role of the manufacturing institutes in preparing 
us both on the scientific side, but also the pipeline of 
workers that we'll need. Can you talk a little bit about how 
the Advanced Robotics Manufacturing Institute in Pittsburgh has 
helped, maybe the one in Youngstown as well, our neighbor, and 
how we could improve those to maybe build on the partnership 
that you keep talking about between industry and the 
universities and the government?
    Dr. Gallagher. Great, thank you. And thank you for wearing 
the tie. I always appreciate that. So one of the reasons we 
keep focusing on manufacturing is, I think, always surprising 
to people. It's not just the making of things, and the 
workforce issues. That's often sort of that view that we get. 
The reason manufacturing, in my mind, is so important is that, 
in the United States, if you look at all of that half-trillion 
dollars R&D spend that we make every year, almost three 
quarters of that--we're approaching $3 on every dollar that the 
Federal Government placed. So the private sector side is now 
the dominant amount of R&D spend in the United States. And if 
you look at where that's coming from, it's predominantly from 
manufacturers, R&D intensive manufacturers, and that's where 
this R&D--this advanced manufacturing comes from.
    So this is as much about the knowledge economy as it is 
about where things are made. There is where the know-how is. 
But it also has an outsized effect on our traded economy, the 
balance of goods, on our middle class, so there's a lot of very 
strong economic reasons why the advanced manufacturing sector 
is there. Here's the problem I see. Despite the fact that the 
private sector's R&D has grown faster than the Federal 
Government's--so we went from a time, during the peak of the 
Apollo, when the Federal Government's expenditures were larger 
than the private sector to now one where they're three times 
larger, is that the makeup has shifted.
    The--where the money goes from the industry side now is 
largely focused on late-stage R&D and development, whereas 
universities now are specialized more on the basic R&D side, so 
the two worlds are actually quite far apart. And of the 
challenges--can we bring them together? So you could certainly 
have universities try to do industry-like things, and, of 
course, entrepreneurship and other things is a way of pushing 
them to get more commercial, but part of the strategy should 
be, how do you pull industry toward the universities?
    The idea behind those institutes was to get industry--a 
number of industries together, like a consortia, identify a 
pre-competitive agenda, one that they're willing to share, and 
that tends to be, you know, less sensitive, and something that 
the universities can work with. And so the idea behind the 
institutes, if you think about it, was a consortia with a lab. 
I think they've been remarkably successful, but they're quite 
young. For me, the litmus test of success is do they--are they 
sustainable, and does industry see a value in sort of moving 
decidedly in funding this pre-competitive window, and does that 
attract that shoulder rubbing I was talking about between the 
universities and the world of industry?
    Interestingly, this--these workforce issues we see in 
manufacturing are, you know, who brokers that? One of the 
exciting things, I think, is that these consortia have often 
looked--a lot of the employment comes in the supply chain, but 
once you have a consortia, the consortia often takes ownership 
over that supply chain. We saw that with Semetec and the chip 
manufacturing. A lot of that R&D investment that the chip 
manufacturers made went to the supply chain that made the 
tooling, and other advanced instrumentation. So I'm hopeful 
that they also become a powerful way of supporting workforce 
growth and training in the supply chain, which is where most of 
the employment is.
    Mr. Lamb. Thank you very much. And, Madam Chairwoman, I 
yield back.
    Chairwoman Johnson. Thank you very much. Dr. Babin?
    Mr. Babin. Yes, ma'am. Thank you, Madam Chair. Thank you 
for being here, all of you. As the Chairman of the Space 
Subcommittee for the previous two sessions, and the Ranking 
Member of the Space Subcommittee now, I would ask you about 
public-private partnerships, and I would address this to you, 
Dr. Khan. When we look at what NASA has done by partnering with 
industry to support commercial space, allowing NASA to focus on 
other priorities, like deep space exploration, do you think 
that public-private partnerships like these may be a tool to 
address U.S. competitiveness in cutting-edge industries of the 
future, like quantum? Are other nations investing in public-
private partnerships in these fields? If you would briefly give 
me your thoughts?
    Dr. Khan. Well, other countries definitely are investing in 
these public-private partnerships, and they're--frankly, having 
learned from the U.S. as a pioneer, have created, and emulated, 
and modeled, much--examples of this. However, we remain the 
leader simply because of the installed infrastructure, the 
network of our academic and national labs, as I mentioned, but 
the application of this really comes to life from a--from my 
perspective, because, unlike an academic discipline, where you 
may have 5, 6, 10 disciplines looking at individual components 
of the science by necessity, we, as industry, don't say to a 
university, give me, and I'll give a very simple example, the 
next generation of this polymer. We go and say, I want a 
sustainable package for food which will keep the food safe, and 
will keep it clean, and I can put it into my supply chain, and 
manufacture it at high speed in 10 locations. That's a real 
world problem.
    I can, however, go to a great institution, and there's a 
number of institutions, as well as national laboratories--not 
easy today to get a national lab or university, maybe more than 
one university to say, that's the problem I need to solve.
    Mr. Babin. OK.
    Dr. Khan. And there you can bring the consortium together.
    Mr. Babin. All right. Thank you very much. And then, 
second, I'd like to address this to you, Dr. Gallagher. Our 
intelligence community has warned Congress about the threat of 
foreign espionage in our science and technology arenas, 
particularly on university campuses. Given this challenge from 
our adversaries, and particularly China, how do you suggest 
that we better protect our American campuses, our research, and 
our leadership from this threat? I just read an article on 
Confucius Centers just yesterday, and this is a very big threat 
to our national security.
    Dr. Gallagher. So one of the flip sides, you know, of the 
S&T and T enterprise is that it's about science, and it's--in 
the context of science, knowledge is a good thing, and we want 
it to be shared as broadly as possible, but it's also science 
that's useful to us for these national purposes, and so we 
derive things that are quite sensitive. Things like I--
intellectual property, national security information, and other 
things. So managing this tension between when is the S&T 
producing open knowledge, and when is it producing knowledge to 
be protected, is really one of the great challenges.
    This segregation is actually one way we managed it. 
Universities, by and large, do very little intellectual 
property-intensive work, and very little classified work. We 
don't do any classified work at the University of Pittsburgh. 
And so that has led them to sort of have a--an architecture 
that's more open, and where information's more widely 
available. And, of course, if you went to a company, things 
would be locked down more tightly. What's happening right now 
is this boundary between sensitive information versus open 
information is becoming blurrier, and I think the highly 
competitive interaction between the U.S. and China is making us 
re-look at the risk proposition. When----
    Mr. Babin. Absolutely.
    Dr. Gallagher [continuing]. We were dominant, we were 
probably more willing to share. So I think this is an area 
where we're looking for clearer guidance from the government. I 
think one of my big concerns now is we're reacting to the 
concern, but really without a policy strategy. And----
    Mr. Babin. OK. I----
    Dr. Gallagher. Important topic, yes.
    Mr. Babin. All right. Thank you very much. I've got one 
more question, and I want to address this with you, Dr. McNutt. 
I'm hearing the point repeatedly made that for America to 
maintain its leadership in science and technology, it 
necessitates an influx of funding, an increased investment, in 
other words. Given that the debt situation domestically, 
currently at $22 trillion, and Congress's obligation to be 
prudent stewards of the taxpayers' dime, at whose expense 
should we make this commitment, and what should be cut in order 
for us to focus more on our science and technology? I'd like to 
hear your thoughts.
    Dr. McNutt. So--thank you for that question. So I don't 
necessarily think that we need to ramp up greatly the 
investment in science and technology. That can actually be not 
a good thing for science, when you have, for example, huge 
increases in budgets, and then they level out, because then you 
create a new workforce, and there's no place for them to go. 
But steady funding for science is important. So I think what 
I'm more concerned about would be a rapid decrease in the 
science budget due to, say, sequestration caps. So steady 
funding of science is much more important than the vicissitudes 
of funding, which can happen when we don't do long-term 
planning.
    Mr. Babin. I understand.
    Dr. McNutt. And I also think that how we spend the money, 
less incremental science, much more high-risk, high-reward, the 
kinds of things that are much more likely to lead to 
breakthroughs and new industries.
    Mr. Babin. Certainly. Thank you very much. I yield back, 
Madam Chair.
    Chairwoman Johnson. Thank you very much. Mr. McNerney?
    Mr. McNerney. Well, I thank the Chair, and I thank the 
panelists. A very interesting discussion today. And I want to 
sort of appreciate your comments, Dr. McNutt and Dr. Gallagher, 
on the continuity of funding. I spent 25 years developing wind 
energy technology. Some of that was funded by the U.S. 
Government. Funding and support fell off. The technology we 
developed, with U.S. funds, went overseas. I saw that happen 
with my own eyes, so I think that's a very important point to 
make, and to continue to make.
    Dr. McNutt, as you may know, the NAS is beginning a study 
on climate intervention, governance, and research, including 
atmospheric sunlight reflection. Can you talk about ways we 
should be supporting basic science research to combat climate 
change?
    Dr. McNutt. So that study is a follow-up to an earlier 
study, which talked about the fact that we may find ourselves 
in a situation where our backs are against the wall, and we 
simply do not know enough about these potential solutions to 
know whether they are worse than doing nothing.
    Mr. McNerney. Right.
    Dr. McNutt. And, in particular, the governance situation is 
unknown at this point because there are no international laws 
that would prevent someone from deploying albedo modification, 
for example, to control climate. And so you can imagine a 
situation where a single nation could alter the albedo because 
they're concerned about their climate. In doing so, they could 
make it worse for five other nations.
    Mr. McNerney. Right.
    Dr. McNutt. No one could stop them, short of, perhaps, some 
kind of military intervention. And that might not be a good 
outcome, which is why we need to study this problem.
    Mr. McNerney. Thank you. Dr. Khan, China has made it clear 
that they intend to be a leader in AI (artificial 
intelligence), and, as the Chairman of the AI Caucus, I'm 
focused on the safe advance of U.S. AI technology. What, in 
your opinion, is needed to maintain U.S. leadership in 
artificial intelligence, and how would you describe the 
consequences of ceding leadership?
    Dr. Khan. Well, I think the second part of your question is 
easier to answer in some respect, because if we look at 
everything from the next generation of manufacturing, to health 
care, to agriculture, to any industry we can look at, AI is 
already playing a part in the development of that industry. 
And, in the absence of our leadership, then we cannot operate 
as a leader. So AI, to me, is a tool that allows us to operate 
in the next generation, and discover the solutions of the next 
generation, whether it's environmental, or any other aspect.
    In terms of the first, we have to be consistently 
supporting the development of those technologies, just as Dr. 
McNutt said. The challenge is not just the quantity, but the 
uncertainty with which that funding comes, and we have to 
prioritize it. There's no other solution, and, in fact, I don't 
think we have a choice.
    Mr. McNerney. Thank you. Dr. Khan, I just want to talk 
about the economic deterrence of going into STEM fields. It 
takes years of graduate school at very--survival wages. It 
takes years of post-doc at meager salary. When you become a 
researcher, a full-fledged researcher, you have debts. Your 
contemporaries are way ahead of you financially. You've spent 
years in your basement, inverting functional matrices, or 
whatever it is you do in your research, while your 
contemporaries are out there having fun, or doing--partying, 
whatever they do. So what are we going to do to change that 
model so that students want to go into these fields, and not 
have to worry about ending up behind the eight ball?
    Dr. Khan. I thought you were describing my early life. I 
spent 8 years as a trainee after medical school, so I 
personally know that. And, by the way, my wife's sitting behind 
me, who can vouch for all those tough years. Look, we have to 
figure out a funding model that makes education--the 
availability and access to education has to be democratized in 
a way it's available to everybody. And if we're going to get to 
a state where we have a diverse, educated workforce, it has to 
be on the basis of the fact that, regardless of your means, at 
some point you have at least that at your availability. I will 
defer the solution to that to the Members of this Committee.
    Mr. McNerney. Just a simple yes or no, Dr. Gallagher, is 
our patent system part of our problem?
    Dr. Gallagher. It's certainly an element in it, yes.
    Mr. McNerney. Thank you. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Waltz?
    Mr. Waltz. Thank you, everyone, for coming today, for 
testifying--this critical issue. Dr. McNutt, you mentioned in 
your testimony women in STEM, in science, in technology. I 
agree with you, we've made gains. I don't think we've made 
enough. I think incentivizing women to have interest, and 
pursue careers in STEM is critical to fully utilizing our 
talent base, and competing long term. And, in fact, it's not 
just about competitive, it's not just a domestic issue, it's an 
international issue. It's a national security issue, in my 
view. And in my background as a Green Beret, and operating all 
over the world--I mean, the bottom line is where women thrive 
in business, in civil society, in politics, extremism doesn't. 
Not to be sophomoric, but I think that's just my experience.
    So the question is, how do we make STEM education more 
attractive, interesting? How can this body assist? Why are more 
women not attracted to this field, and how can we continue to 
move that forward?
    Dr. McNutt. Well, thank you for that question. I used to 
think, very naively, that the reason why we had this leaky 
pipeline problem--we saw it in many fields, my own field in 
particular. Fifty percent of the students in graduate school 
were women----
    Mr. Waltz. Um-hum.
    Dr. McNutt [continuing]. And it had been that way for a 
long time. Why weren't we seeing them come out the other end 
into the associate professors, and the full professors? It 
wasn't happening. I thought it was just a quality of life 
issue. Maybe they're too smart to be stupid like us, and think 
that a, you know, career in science was a lot of fun. And then 
my eyes were opened by this report that the National Academy of 
Sciences did, that showed that there is this undercurrent of 
harassment for women that is--that has gone underground. That--
it used to be out in the open. It went underground, that was 
just the--dear, you don't really belong in science, do you? Or 
wouldn't you be happier doing this instead? You know, and it 
was just--or the little put downs that were discouraging to 
many women. And we just have to stop that.
    And it--of course, it happens everywhere. It happens in 
law, it happens in business. But it's worse in science, and the 
reason it's worse in science is because of this indentured 
servant model, where students come in, and they're attached to 
a supervisor who is responsible for their funding, for their 
research project, for their recommendations after they 
graduate, and it makes it much more difficult for them to cut 
loose in a bad situation.
    Mr. Waltz. Dr.--didn't mean to interrupt you. Just, in the 
interest of time, I would be interested in follow up on how we 
can----
    Dr. McNutt. Yes.
    Mr. Waltz [continuing]. How we could help.
    Dr. McNutt. Yes.
    Mr. Waltz. Dr. Gallagher, I'm interested in your comment a 
minute ago about guidance when it comes to the Chinese, I mean, 
frankly, just stealing our IP (intellectual property) and our 
technological edge across the board. I'm also on the Armed 
Services Committee, and it is just wholesale theft, in their 
national interest, and certainly not in ours. So what guidance 
do you need? Do you need a categorization of what is considered 
sensitive? Do you need standards on what needs to be protected? 
I certainly don't want to limit the growth of--and your 
freedom, but what do you need?
    Dr. Gallagher. So--yes, my take is that the exfiltration of 
American IP and sensitive information to China has been 
happening for a long time. This is not a recent phenomenon. And 
so, you know, lack of enforcement, lack of, you know, 
protections. I think some of the positions that U.S. companies 
have been put, where they have to operate in China, and they 
have to, you know, basically spill over----
    Mr. Waltz. I think the Administration's getting at that 
pretty aggressively.
    Dr. Gallagher. The--but the flip side is it's also been 
part of U.S. science policy for a long time, in fact, since the 
opening of China in the 1970s, that science was a form of 
scientific diplomacy, that we wanted to be there openly, and 
collaborating, with the hope that the Chinese, at one point, 
would be contributors to the knowledge commons of fundamental 
science. So in some ways that's happening as well. They're now 
producing papers, and actually contributing. So we have this 
dilemma where the competitive nature of China with the United 
States, whether geopolitically or economically--the question 
is, does that mean we should stop collaborating on the science 
side as well? And that's where I think there's----
    Mr. Waltz. Well, I'm asking you.
    Dr. Gallagher. I--my instinct is no. I think that there's a 
win when--because most science has been done with broad open 
collaboration. The rising tide rises all boats, and I would 
much rather see the U.S. not subsidize the technology around 
the world. We'd like to see more countries contribute to basic 
science. The problem is matching those concerns we have when it 
becomes specific nationally related or commercially related 
information with this window when it's presumably open, and all 
for the good.
    Mr. Waltz. Thank you.
    Chairwoman Johnson. Thank you very much. Mr. Bera?
    Mr. Bera. Thank you, Madam Chairwoman. You know, what's 
remarkably refreshing is I really can't tell who the Republican 
witness is and the Democratic witness--because I agree with all 
of you, and there's so much that we could talk about.
    Dr. McNutt, you talked about the best and brightest coming 
to the United States, and our history is that of a Nation of 
immigrants. If I think about my own story, my parents came from 
India in the 1950s to get their education at USC, and then they 
stayed. If, you know, Googling this, 55 percent of American 
billion dollar startups have an immigrant founder. Thinking 
about Google, Sergey Brin was an immigrant from Russia who went 
to Stanford on a PhD graduate fellowship that was funded by the 
NSF. These are smart investments that we ought to be doing more 
of.
    Dr. Khan, as a lifelong Californian, I paid $393 a quarter 
to go to medical school at the University of California, Irvine 
because we made a conscious decision in California in the past 
that we thought investing in education--and, if you had the 
talent and desire, we--you ought to invest in your best 
resource, your people. We stopped doing that in the mid-80s and 
1990s, and, you know, it--and we're living off of the residual, 
in California, of those investments--we made in the 1960s and 
1970s.
    If you think about then--the University of Pittsburgh's a 
wonderful institution, but I'm a University of California guy, 
and, you know, if you think about the remarkable economy in 
California, they're all built around our universities, our 
research universities. There's a reason why Silicon Valley 
exists where it does. You know, the remarkable work that's 
coming out of the University of California, Davis, my home 
institution, you know, around the Ag, water, that sector, these 
are smart investments, and we're just not doing it.
    If I think about, you know, a couple things that came up, 
we've got to re-think education, right? Both in the K through 
12 space, but also our 4-year education graduate degrees. And, 
you know, if I think about it, when I was Dean of Admissions at 
UC Davis, we tried to revamp medical school training, because 
it's an outdated model. Now, you run into huge faculty issues 
and institutional barriers. Maybe each of you, if there's one 
or two things that we could do to modernize higher education, 
what would those tools be? I don't--we'll start with you, Dr. 
Gallagher, because you're in the midst of it right now.
    Dr. Gallagher. Well, one of the biggest things that I think 
many of us are navigating is there's a pendulum swinging back 
and forth between whether education is a private good, in other 
words, it's the student who benefits with the degree, and 
therefore they should pay for it, or whether there's a 
collective or public good to our society by having--and you see 
that being played out in the levels of State support, for 
example, which has been the--historically where institutional 
support went. So Pennsylvania's sitting number 49th in the 
United States in the level of public support to the 
universities, and as a result Pitt is, I think, one of the most 
expense, if not the most expensive, public university in the 
United States. Not something we're proud of.
    There's--I--the most frustrating thing, I think, before we 
get into reinventing higher ed, is we have to reach some 
consensus on whether this is merely a public good or a 
private----
    Mr. Bera. I think, you know, we spend a lot of time 
thinking about the future of work, and those areas of the 
country that are falling behind, versus those areas that are 
going to be resilient and thrive, again, the coasts and the big 
cities--yes, MIT's doing some pretty interesting research here, 
those characteristics. There's always an academic research 
center in the--so I would argue it's a public good, if not an 
economic good. And one of my colleagues talked about the 
investments, and I'm very concerned about the debt and the 
deficit, but we never talk about the return on investment, had 
we not invested in those--and I think we've got to do a better 
job explaining, you know, that return on investment. Dr. 
McNutt?
    Dr. McNutt. Yes. If I could reimagine what I'd like to see 
as the future of higher education, we'd stop thinking about 
higher education as a 4-year, one-and-done kind of thing, that 
higher education becomes a partnership between American 
industry and the universities, such that people view higher 
education as a continuing process that they're always doing, so 
that people are always on the cutting edge, such that they 
always feel prepared for whatever comes next, and that industry 
is helping to inform universities what they need out of their 
workforce, and people feel a lifelong connection to these 
institutions.
    Mr. Bera. And, you know, if I think about the PhD students 
that I trained with, they were going into academia. The PhD 
students today are going to go into industry, and I think we've 
got to do a better job.
    Dr. Khan. Well, I hope they go into both. And, again, to 
Dr. Gallagher's earlier point, coming back to the fact that 
industry is funding more research than the government is is not 
a good thing. I don't celebrate it, as an industry person, 
because my research is applied, and I can't do applied research 
until I have the basic fundamentals, so--but from the 
educational model, I want to just build on Dr. McNutt's point, 
which is most of us are not doing a job that we were trained to 
do when we were in academia. That is just--I think, if you look 
across this room, I doubt anybody in this room had a degree in 
how to be a Congressman. I certainly didn't have a degree on 
how to be at a food and beverage company.
    And I think the key here is that we train a workforce that 
has the plasticity and the learning ability for lifelong 
learning, so that's the internal that we have to do, and then a 
culture that actually nurtures that. It's going to take both, 
which is where the policy part comes in. I think if we don't do 
that, especially in the rate and pace of change that we're in 
today, the world expects that we will re-educate ourselves, and 
have multiple careers. And if we couple that with the 
population demographics in the United States today, and in many 
parts of the world, our population demographics are such that 
we're going to have, with the Baby Boomer population, a large 
number of people who are able to work, but need to be re-
tooled, and the economy needs them, and industry needs them. We 
need that partnership. So education coming--bringing it to 
life, exactly what Dr. McNutt says, they're our absolute 
necessities. We don't have the framework right now to do that.
    Mr. Bera. Great.
    Chairwoman Johnson. Thank you very much. Mr. Gonzalez?
    Mr. Gonzalez. Thank you. Thank you for your testimony so 
far. This has been a fantastic hearing, so--just really 
appreciate all the work that you've put into it. Couldn't agree 
more with the last topic you were just talking about it, which 
is we need to instill a culture of lifelong learning, and our 
education system needs to reflect the realities of the 21st 
century economy, where we're--forget jobs, we're popping in and 
out of industries multiple times over the course of our career. 
So I fully agree with that.
    If I could, to start, Dr. McNutt, I want to build on Mr. 
Waltz's question. I think you framed the problem incredibly 
well, in terms of, you know, what's pushing women out of STEM 
fields, and then he asked the question--well, he didn't have 
time, but could you expand on what you think this Committee 
could do to support women in STEM education, and in industry 
generally?
    Dr. McNutt. Right. So the report makes the point that 
changes need to happen--this is the National Academies report 
on sexual harassment for women in the science, engineering, and 
medicine fields--that the main changes need to come from 
changing the culture. We have to change the culture of our 
institutions. And changing the culture within our laboratories, 
our Federal laboratories, changing the culture within our 
funding agencies, changing the culture within our universities. 
All of these systems need to have a topdown culture that starts 
with statements like, sexual harassment, gender harassment, 
will not be tolerated.
    I remember many years ago the Federal Government, through 
OSTP (Office of Science and Technology Policy), but I think 
well with the support of Congress, made scientific integrity a 
priority. I think that the government should make the 
banishment of sexual harassment a priority as well, and make 
every single agency come up with a plan for how they are going 
to change their culture to make sure it doesn't happen. And 
have your funding that you give to them contingent on having 
that plan.
    Mr. Gonzalez. Thank you. And then, switching back to 
education, specifically in communities not on the coast, right? 
So I come from Northeast Ohio, and we have a pretty big skills 
gap when it comes to STEM. According to a recent estimate 
provided by McKinsey and Company, Northeast Ohio has the 
potential to receive an economic impact of between $3.5 and 
$10.1 billion annually by year 2025 through the implementation 
of things like Internet of Things, various manufacturing 
application segments. What we lack is a workforce that has the 
tools to take full advantage of these opportunities.
    So what would you say, and anybody can answer this, would 
be the right way that we should be thinking about this in 
Northeast Ohio, as we train up our workforce for the 21st 
century? Dr. Gallagher, please.
    Dr. Gallagher. Yes. Let me--I think one of the ways I think 
about this--in fact, it goes back to the Ranking Member Lucas 
talking about farming. You know, when the United States started 
industrializing, one of the things we did as a country was 
rather dramatic. We made mandatory elementary school, right? 
And we decided that the population, to be able to adapt to this 
economy, needed to have basic literacy and math skills to be 
able to focus on that. I think a similar thing is happening. 
These knowledge-based economies--the good news is that the 
knowledge moves pretty well, and broadband, and infrastructure, 
and computing, the, you know, I don't think the proximity to 
the few top, most R&D intensive universities is the only way 
that our society can benefit. But I don't know if people have 
the skills in basic digital literacy, those core competencies 
that they can, you know, productively and agilely work in that 
economy.
    Mr. Gonzalez. Great. And then, final question, and I think 
this was Dr. Khan who mentioned that the industry-university 
government synergy has kind of broken down, or was that you, 
Dr. Gallagher? That was you? OK. So, if you could, you know, 
just describe some ways that we might be able to piece that 
back together, because it strikes me that that's a critical 
component here.
    Dr. Gallagher. Well, I think it's, you know, the government 
has tended to fund the universities, so a lot of the mandate 
has gone on the universities for how can they be more relevant 
to industry? I think the uncracked code is, you know, who's 
talking to industry about the partnership working the other way 
as well, and creating some of those dynamics where, you know, 
companies that are working very hard on competing and working 
on pretty sensitive technologies can find a place where they 
can move upstream, take some of that higher risk, but higher 
payoff, more fundamental work, and work alongside the 
universities. That could be in consortia, other types of 
partnerships. I think asking the funding agencies to look at 
how that would work, and how some of those cost sharing 
arrangements could be incentivized.
    We've stimulated the amount of R&D spent by industry with 
the R&D tax credit and other things, but we haven't really 
tried to shape where some of those investments are, and I think 
that's an interesting policy arena.
    Mr. Gonzalez. Got it. Thank you, and I yield back.
    Chairwoman Johnson. Thank you. Ms. Horn?
    Ms. Horn. Thank you, Madam Chair, and thank you, all of 
you, for this fantastic hearing today. There are many things 
that I want to talk about, so I'll try to keep it focused. The 
questions have been fantastic. A couple of things. I've heard 
consistently from all three of you about three challenges, 
concerns, and opportunities. One is the pipeline, two is the 
resources, and three is the need to innovate, and continue on.
    So I want to start by focusing on Dr. Khan, there was 
something that you said, and--building into that pipeline, I 
think there are a few pieces to it that have been addressed, 
but the need not necessarily for everybody going into these 
fields, and to continue to grow, to have a 4 year or advanced 
degree. And I would love it if you, and then perhaps Dr. 
Gallagher and Dr. McNutt, could briefly speak to--there's a 
concept that I've talked to a lot of employers in my community, 
as well as education institutions, about stackable credentials, 
about helping individuals build the skills that they need to 
move into the workforce, to meet the workforce needs. Because 
many of the employers that I know, in Oklahoma and other 
places, are not finding people with the skills. And as we build 
into, not only the gap between men and women, but also there's 
a substantial gap in minority communities not coming into the 
STEM fields. If you could speak to the idea of stackable 
credentials using career techs, 2-year colleges, universities, 
things like that?
    Dr. Khan. I think you asked me to start. Let me--I've--
we've talked about research universities as the engine for 
innovation, but at the--from an education point of view, we 
have an install base of community colleges across the Nation, 
and we have institutions that can offer 2-year degrees. And the 
question, from an industry perspective--and these are not 
research institutions, but educational institutions. And this 
is a question of and. It's not either/or, but we need to be 
able to think about how to do that.
    There is a domino effect of not doing that, which was 
touched on earlier, which is these more rural communities start 
to lose their people into urban communities because that's 
where the jobs are, and that's where the facilities are. That 
has all sorts of other socioeconomic impacts to the communities 
that lose people versus the communities that are absorbing 
them. So I think our educational system has to be more diverse 
than simply deep academic institutions that are centers of 
excellence for research versus the large need for education and 
STEM talent in general.
    Dr. Gallagher. So on the issue of credentials--so I don't 
think the hard part of credentialing is the--interestingly 
enough the stackability, or the--combining the training with, 
you know, what it takes. The community colleges, the 
educational enterprise of the United States, is pretty good at 
figuring out the training part. But a credential, to be useful, 
has to be recognized by the employers. And one of the 
breakdowns is that we, you know, it's--we have particular 
country--companies identify a credential that they would want, 
but it doesn't translate, so these credentials rarely have 
scale.
    One of the real questions--I remember ANSI, which is the 
American National Standards Institute, which often registers 
many of these employer-generated credentials, the Microsoft 
engineering credential people are familiar with, things like 
that, but there are very few that you would recognize 
nationally, and one of the questions is who defines those from 
a, you know, from--that would be recognized in market. 
Interesting possibilities and, you know, it would have to be 
not companies. It could be collections of them, so these 
consortia, or sector-based, or trade organization-based. It 
could be labor, interestingly enough, that could play a role in 
defining some of these portable credentials that could be used.
    I think once those requirements are generated, it's pretty 
easy to map out the educational strategy so that this goal of 
stackability and, you know, building on it is achievable.
    Dr. McNutt. And I'll just briefly mention, there was a 
program at the National Science Foundation that was patterned 
after just what you are describing. It was called the Advanced 
Technical Education, the ATE program, where the idea was to 
provide a 2-year community college degree that would provide a 
living wage for a family of four for a single wage earner. And 
there were a number of ATEs that were set up, I remember, 
because I was involved in the MATE program that was out in 
California, the Marine Advanced Technical Education program, 
that was training people to work in the marine robotics 
industry. And--so it might be worth taking a look at those 
again, and finding out how they worked with industry on these 
credentials.
    Ms. Horn. Thank you. I know my time is about up. I just 
want to say that I appreciate all of your testimony. I think 
this is an important and complex, but also it's a national 
security issue, as well as an issue of our competitiveness, and 
that it strikes me that everything that we're looking at has 
components for investment on cutting-edge research by the 
government, but also iterative research by industry, and then 
the pipeline, and many of these things have to be a 
partnership. So, thank you.
    Chairwoman Johnson. Thank you very much. Mr. Cloud?
    Mr. Cloud. Thank you, Madam Chair, and thank you all for 
being here today. I really appreciate this topic. It's so 
important that we remain the world's leader in innovation. It's 
what we've seen in the last 100 years, with the United States 
leading the world, bringing an end to World War II, putting man 
on the moon, and us remaining that leader, it's certainly 
important that we continue to do that, and make that a priority 
as a Nation.
    Now, the context that makes it challenging, of course, is 
that every year we have deficit spending. We're looking at $22 
trillion of debt, which is also a national security issue, 
becoming such. So the question for me becomes how do we 
accomplish this? And there's a couple of areas of concern I 
want to point out. One is how do we ensure that the funding we 
do give toward science is going toward items of a national 
interest, and I'll name a couple. In the sense that there was 
a--$1.3 million given to the University of Washington to 
research whether koozies could keep drinks cold. There was 
another study for a half a million that had to do with shrimps 
walking on submerged water--underwater treadmills. And so how 
do we make sure that the money we do--we are allocating is 
going toward rightful purposes?
    And then the other area I think that's a major concern is 
with China becoming such a major power play, they're not 
innovating, but they are stealing our innovation, to the tune 
of, some would say, $2 to $600 billion, which is actually more 
than we're spending in science right now. And so the picture I 
kind of have is that we have a bucket, we're being asked to 
kind of fill it up even more, but there's these holes in the 
bucket, and China actually has a bucket underneath it, and 
they're kind of taking it from us.
    And so the questions I have would be what can we do to make 
sure that the funding we're getting is going toward national 
purposes, and then also what can we do to ensure, especially at 
the university level, where a lot of this theft is happening 
now, to ensure that we shore that up? And if I may, Madam 
Chair, I'd like to submit the IP Commission's 2019 Review.
    Chairwoman Johnson. There are no objections.
    Mr. Cloud. Thank you. And, with that, I would hand it over 
to you all.
    Dr. McNutt. I just want to make two quick comments. First 
of all, trying to decide what research is in the national 
interest, I think, is always going to be difficult to do. Let 
me just give you one quick example, the Cas9 bacteria, which 
everyone knows now because it's used in the CRISPR (Clustered 
Regularly Interspaced Short Palindromic Repeats) process to 
edit the genome. And whole new industries are growing up now 
with the potential to basically text edit genes for all sorts 
of purposes. That was done--discovering how that worked was 
research into obscure bacteria, and what they were doing, 
without any thought that it might someday be this incredible 
discovery, that it could actually edit genes in the way that it 
does.
    And, on the second one, I'll say that the best way for 
technology transfer is actually not patents. It is the students 
and the post-docs walking out of the research labs, and going 
into industry. That is how ideas actually are most effectively 
transferred. It used to be that the students, no matter where 
they came from, went into our own industry. Now what's 
happening is they aren't staying here, they're going back to 
where they came from. So that's the problem we have now. If we 
were keeping the students here, we wouldn't be so worried about 
it.
    Mr. Cloud. I agree that that is a problem, but at the same 
time we have China hacking into our systems.
    Dr. McNutt. Yes----
    Mr. Cloud. I think it was 27 universities recently. I mean, 
they're stealing everything from shipping secrets, to missile 
secrets, to fertilizer recipes so that they can have better 
production in agriculture. So they're catching us, and if--in 
my analogy, if we keep pouring money into this bucket without 
shoring up, I mean, we're in a sense funding their innovation 
as much as we are ours. So that's my concern.
    Dr. Gallagher. I know--let me give a real quick answer. I 
think that your first point about the efficient allocation of 
Federal investments to make sure it's really on the top science 
comes down to a good identification of the areas of science. 
Remember how stimulative Federal investments are. They create 
new students, and new--so we have to make sure that the program 
calls that the agencies make are really clearly on areas of 
national priority need, because you're going to be creating new 
future capacity there.
    I think that the good news is that the--by and large you're 
always going to see some outliers, and you're always going to 
see these kooky titles. The scientists don't do themselves any 
favors sometimes, but this is such an intensely competitive 
environment. These scientists are fighting for a very limited 
amount of funding. My experience has been that, you know, any 
outlier or poorly allocated research quickly doesn't get 
renewed or funded. And, of all the things to worry about, that 
efficiency is not the one that would be atop of my list.
    I do think Dr. McNutt has pointed out something--I--look, 
we have to worry about our cybersecurity capabilities, and this 
problem with exfiltration of data and information, but the one 
I worry about the most is the exfiltration of talent, because, 
you know, the data is basically scientific or technical 
knowledge that we've already created. And it's true once that's 
gone, that's gone, but if the folks who are going to generate 
the next generation of talent aren't here, then we're not 
even--we won't have anything that's worth exfiltrating in the 
future. So I think that talent, making sure that these are 
knowledge-driven economies, we have the best talent here in 
this country is the competitive issue.
    Dr. Khan. Two quick comments to build on that. One is 
there's always this tension between focused, mission-driven 
research, whether it's, you know, sending a person to the moon, 
or--versus exploratory research. And I think we have to be 
careful the pendulum doesn't swing one way or the other, 
because the two are, at the end of the day, interdependent. 
And, as Dr. McNutt said, often research projects don't deliver 
in the area--well, quite often don't deliver in the areas that 
you think.
    The second is, when we think about knowledge transfer in 
industry, and people that I hire as scientists, I'm not hiring 
them for the knowledge of the project they were working on, and 
I have thousands of scientists, I'm actually hiring them for 
their problem-solving skills that they learned in the 
laboratories of institutions funded by Dr. McNutt, or like Dr. 
Gallagher's. Once they come into that environment, they're 
going to face new problems to solve, but their skills were 
transferred.
    You know, this transfer of knowledge, at the pace of change 
we're talking about, is relatively short lived. If you can't 
continue to iterate on it, it becomes obsolete. The estimate is 
about 50 percent of scientific knowledge is obsolete within 
about 5 years. And so it's old by the time--I mean, you finish 
your training, in my case, it's already old. So it is important 
to have that problem-solving approach.
    Chairwoman Johnson. Thank you very much.
    Mr. Cloud. Thank you.
    Chairwoman Johnson. Mr.--Ms. Wexton?
    Ms. Wexton. Thank you, Madam Chair, and thank you to the 
panel for coming and joining us today, and informing us on this 
important topic. As you are aware, we started 2019 in the midst 
of a 35-day partial government shutdown. NASA, the National 
Science Foundation, the National Institutes of Standards and 
Technology, the Department of the Interior, U.S. Department of 
Agriculture, and NOAA (National Oceanic and Atmospheric 
Administration) were just a few of the critical science 
agencies that were shuttered during this time. The National 
Science Foundation alone had almost 1,400 workers furloughed 
during the shutdown. And, because of the shutdown, hundreds of 
research proposals that were scheduled to be reviewed by the 
NSF for Federal funding had to be shelved. Others had to be 
pushed back. They also had to alter their merit review process 
in some cases, which had previously been called the gold 
standard, and the envy of the world. These are just a few 
examples of how the shutdown disrupted the work of our science 
agencies.
    Dr. McNutt, can you talk about the impact of the shutdown 
on science and technology innovation, and on U.S. 
competitiveness more broadly?
    Dr. McNutt. So we've actually been discussing doing a 
rigorous analysis of what the impact of the shutdown had on 
science and the scientific enterprise across the country, 
because we know for a fact that there were a number of 
important research projects, observational projects, field 
programs, that were interrupted, and had a very difficult time 
starting up again. There were many programs within the Federal 
agencies that suffered. Just as I said earlier today, that any 
kind of large swings in funding are difficult for science. The 
shutdown is the perfect example of a big swing that causes 
government labs across the country to shut down, and then have 
to spin up again, and that's very disruptive to the science. 
They try to keep the critical stuff going as much as they can, 
but it's still very difficult.
    Ms. Wexton. OK. And how has this affected our international 
scientific coordination and relationships with other nations?
    Dr. McNutt. Well, we've always had trouble, as the U.S., 
with our annual funding program, being a good partner and 
remaining committed to our programs that we are involved in, in 
partnerships, and a shutdown is the worst thing that we can do, 
in terms of showing our commitment to partnerships, because no 
one can travel abroad. Sometimes people cancel their flights 
the very day of because they're not sure when a shutdown is 
coming. There might be a deal at the last minute, there might 
not, so it's very disruptive.
    Ms. Wexton. Thank you. Now, as Dr. McNutt noted in her 
testimony, national security is one component that depends on a 
strong and diverse STEM-educated workforce. Now, in Northern 
Virginia, which I represent, we have the Pentagon, as well as 
some of the world's top defense firms, who are tasked with 
coming up with technological solutions to a number of our 
greatest national security threats. They are reliant on a 
talent pipeline that we've heard--as we've heard today can't 
keep up with the demand for the highly skilled workforce, and 
they have an added hurdle of having new hires who may have to 
wait sometimes years for a security clearance.
    To the panel, can you speak of some ways that the Federal 
Government can best partner with industry to ensure that we 
have the STEM workforce we need to meet our national security 
needs?
    Dr. Gallagher. So the one--I'm not going to give you a 
complete answer, the but the one aspect of this that I think a 
lot about is that one part of that workforce, when you get to 
scientists and, you know, research intensive engineers, is that 
it takes so long to--remember, the training model is very in-
depth. We put them into an environment where they do research 
at the cutting edge, and that's how they learn. It's an 
apprenticeship-based model. It takes many, many years, it's 
very expensive, and what you can't do is turn that capacity on 
or off.
    So one of the things that, I think, from a national 
security perspective, is, and I think Dr. McNutt has talked 
about this, the signals that come from the government, through 
its funding, are one of the strongest signals in shaping demand 
and supply, because they go right to the universities. So our 
research dollars are not just doing research, they're training 
researchers. It doesn't handle swings up and down very well, 
which is one of the reasons, you know, the scientists are 
always claiming poverty when things--when even the growth rate 
isn't what they expected it to be.
    So stability--and that's why I said whatever strategy we 
have from a science policy, there has to be a sustainable 
commitment to send those signals, you know, over a long period 
of time, because it takes 5 or 6 years, in many cases, to train 
a PhD If our--if we're changing our mind every year or two, 
then we're not going to see the effect that we want to see, and 
I think that goes to the poor allocation of those Federal 
investments.
    Chairwoman Johnson. Thank you very much. Mr. Weber?
    Mr. Weber. Thank you, ma'am. Dr. Khan, I want to come to 
you. We heard today about the growing gap between the public 
and private R&D worlds here today, and I do want you to speak 
on this gap from the industry's perspective, and elaborate on 
the policies you believe to narrow that gap. But, before you do 
that, I want to make a couple of comments about the discussion 
we've had. We've talked about a path where we get people in 
STEM, where the colleges, whether they're junior colleges, 
which I graduated from, and the U of H, which is where I met my 
bride 42 years ago, at junior college, so I'm a big junior 
college fan. And then we go to U of H, but you graduate, and 
then you want industry to have a set of goals, I forget exactly 
how you all phrase that, to where we have a dual path going on 
here.
    You've got universities, institutions of higher learning, 
education, call them what you will, are training up students so 
they can make that over into industry, and then industry has to 
be able to give them--you had a term for it. It wasn't 
certificate, it was something else, that they knew that they 
were on the right path to be able to work in that industry. So 
for R&D to work, I think we have to have an education system 
that has that aim in mind that's also STEM-oriented in some 
fashion, and is able to train up these scientists, if you want 
to call them that, and researchers, and you put them over into 
a system like you have, Dr. Khan, that you've been in. How do 
you get those goals into the university so that they can turn 
out students so that you've got good, productive scientists--
researchers working for you?
    Dr. Khan. So I think Dr. Gallagher started this--addressing 
this in the need to create the right partnerships, coalitions, 
consortia, whatever term you want to use. Let me specifically 
address--and I always look at the young scientists that I hire 
into the organization, and then mentor, and we distinguish 
between technical skills which are needed for a specific task 
versus problem solving skills, which are learned.
    Mr. Weber. If you would hold just a second, you referred to 
the core competency in your--Dr. Gallagher, with--in your 
exchange with Mr. Gonzalez. Is that what you're referring to? 
The technical skills, the core competency?
    Dr. Gallagher. That's correct.
    Mr. Weber. OK. Thank you. Go ahead, Doctor.
    Dr. Khan. So, as you can hear independently, we're aligned. 
When I take, and I look at a graduate coming out of a great 
institution, any of our institutions, I look--does that person 
have the technical skills to do the job today? And many times 
we actually have to provide them those technical skills in the 
early part of their career, when they come into industry.
    Mr. Weber. Why doesn't the college teach them those 
technical skills?
    Dr. Khan. Well, let me give you an example why that--why 
part of that is possible, but if you want to be--if you want to 
operate a manufacturing line, and you want to be the line 
engineer, it's unlikely that that full scale engineering line 
fits within an industry--within an academic environment. And, 
second, if we look at people management skills, how do you get 
your team of people to operate that line if you're that line 
engineer? So I can give you lots of examples where that 
apprenticeship part has to be picked up from--as the student 
arrives, or the graduate arrives, out of the academic 
institution into the work environment.
    And I think any of us who made that transition, you learn a 
lot on the job. When I came out of medical school, that first 
year of internship was a heck of a learning curve, and I think 
that's true for--whether it's engineers, physicians, doesn't 
really matter. So that's one part. The key ingredient to 
success for our trainees is the problem solving skills, and 
STEM education in general allows them to focus, frame the 
problem, identify the resources needed, and then work on 
getting that problem solved. That skill starts from the first 
day they're in class in an academic institution. In fact, one 
thing I want to make a point, we all talked about the lack of 
people going into STEM, that shouldn't start at high school. We 
have to make STEM attractive right down to elementary school. 
We're losing so many young students because somehow we sort of 
have this--we communicate that this is going to be really 
tough, and we lose way too many students. So part of the 
problem is we're not getting enough very early in the pipeline.
    Mr. Weber. How did that get communicated to you?
    Dr. Khan. Multiple ways. I'm a father, I'm a grandfather, 
and I'm an employer and an educator.
    Mr. Weber. But you weren't a father and a grandfather when 
you started early in your education career. How did----
    Dr. Khan. I'm sorry, I misunderstood you.
    Mr. Weber. How did that get communicated to you?
    Dr. Khan. Because the teachers that I had--I was fortunate 
to have teachers that actually inspired that science and math 
was actually cool.
    Mr. Weber. How about your parents? They play a role?
    Dr. Khan. My dad was an engineer. It helped.
    Mr. Weber. All right. That is pretty informative. I 
appreciate that. I yield back, Madam Chair.
    Chairwoman Johnson. Thank you very much. Ms. Bonamici?
    Ms. Bonamici. Thank you. This is a great discussion. Thank 
you to our witnesses. Dr. McNutt, you talked a couple times 
about risk taking, and we know it takes vision and persistence 
to conduct research in areas where the benefits are unknown, 
but we also know that that federally supported basic research 
has led to some pretty revolutionary advances in energy, and 
technology, and medicine, and more. And I'm sorry 
Representative Cloud left, but I wanted to invite him, and 
everyone here, to the Golden Goose Awards, which are held 
annually, where federally funded silly sounding research is 
acknowledged for the impact that it's actually made on society.
    I'm also really glad that we're talking about higher 
education. I serve on the Education Committee as well, and Mr. 
Bera talked about the cost of higher education is--which is a 
real issue we hope to tackle this session, but I'm glad we're 
also talking about how we educate creative and critical 
thinkers. And, Dr. Khan, you mentioned flexible thinking and 
problem solving skills. We don't have enough conversations 
about how do we educate people to be creative problem solvers. 
And related is the lack of diversity in our workforce. We know 
that historically science and technology has not been 
especially inclusive of women and people of color, but we know 
that we'll get better decisions when we have diversity and 
various voices around the table.
    It's also important that we're talking about not just 
getting women--girls interested, and women into STEM fields, 
but also keeping them there. Thank you, Dr. McNutt, for the 
National Academies report. I know Chair Johnson has a bill to 
implement many of the recommendations from that report. I hope 
we can get that done. I'm also the founder and the co-chair of 
the congressional STEAM Caucus. We have had conversations 
about, and actually gotten some policy passed, in integrating 
arts and design into STEM learning, which we've seen as very 
successful in addressing the lack of diversity, because 
oftentimes kids, when they're going through school, they think 
they're good at English and art, and they're told, you have to 
choose, you can't do both. You can either be the English and 
art kid, or you can be the science and math. So in schools that 
are integrating arts and design into STEM learning, it's 
helping to diversify the students interested in STEM, but is 
also going to result in a more innovative and curious workforce 
because, when the whole brain is educated, that's what happens 
with the mind.
    Dr. McNutt, confronting climate change is one of the most 
significant issues of our time. I thank you for the Academies 
review of the draft of the--for the National Climate 
Assessment. It's going to require innovation, leadership, risk 
taking, responsible use of the vast resources in our country. 
You talk about how federally funded research comprises 
approximately a quarter of total research and development 
expenditures. You talk about how we'd be served better through 
robust Federal support. At the same time, we've seen this 
Administration propose drastic cuts to Federal R&D and Federal 
science agencies. So why are stronger Federal investments in 
R&D important for demonstrating our Nation's leadership in 
tackling important issues like global climate change?
    Dr. McNutt. So with specific reference to global climate 
change, we--the scientific community is clearly united in its 
understanding that climate change is happening, and that it's 
anthropogenic, but there are many things about climate change 
that still need to be understood better so that we can make 
wise choices about how to prioritize our response. Because we 
know that the clock is ticking, and it's ticking down on the 
time that we have to make the right investments to respond 
quickly enough to actually do the triage that we're going to 
need to do if we're going to get to the other side of this in 
some way that is beneficial to society and our way of life. So 
understanding whether the biggest threats are going to be to 
agriculture, are the biggest threats going to be to the wild 
places, are they going to be to the coastal communities, these 
are all things that we have to put more of a fine point on, and 
make better predictions that are scaled down to the actual 
sectors and the actual geography.
    Ms. Bonamici. I look forward to working with you on that. 
And, quickly, Representative Wexton asked about the shutdown 
and its effect. Dr. Gallagher, when we see the budget cuts, the 
shutdown that Representative Wexton mentioned, the immigration 
issues, how is this affecting our ability to recruit good 
people, and keep them here, and keep them in--as Federal 
employees?
    Dr. Gallagher. Well, I think that, anecdotally, I see 
evidence of people leaving Federal Government for other 
approaches because of the high uncertainty in those roles. 
That's selfishly been good for employers like the University of 
Pittsburgh, who are looking for talent, but I don't think 
that's good. Some of those Federal capabilities would be 
incredibly difficult to rebuild, so I hope it's not a very deep 
loss. And, anecdotally, we've seen the effect of uncertainty 
even at the university. We see it in enrollment rates, in 
visiting faculty coming, in collaborative research, in some of 
the uncertainty around grants, the willingness of some of our, 
let's say, international partners to begin looking at--possibly 
looking at, let's say, a joint grant. When the U.S. Government 
sort of, you know, does this, it sends a signal that maybe 
we're not a reliable partner.
    But I do think we won't know the full impact of that, both 
the direct effect of the shutdown, and that uncertainty effect, 
or opportunity cost, of the shutdown probably for several 
years, and that's really the tragedy of these things, is that 
it kind of leaves a void in the system that you don't really 
see it play out for some time.
    Ms. Bonamici. Thank you. I yield back. Thank you, Madam 
Chair.
    Chairwoman Johnson. Thank you very much. Mr. Baird?
    Mr. Baird. Thank you, Madam Chair, and thank you, experts, 
for being here, and the testimony, the discussion we're having 
today. You know, I'm excited about what's happening in 
agriculture. I mean, the STEM demand there is rapidly growing. 
And, as a result of that, we're able to produce--and if we're 
going to feed 50 billion people here in some time, that's 
certainly important. And--then I just wanted to share with you, 
because all of you had mentioned various aspects of this, but 
I--I'm a kind of a practical individual, and I know when I 
started my PhD program, it went back to when I was in high 
school, even prior to that. And so you mentioned earlier 
attraction, down to K-12. But I had teachers who recognized 
some skills, some aspect that I might have, and they thought--
and they encouraged me, and even had that in high school. And 
so my point here is--being that--then as I got to college, and 
managed to get into some of the courses, then I got interested, 
and I became increasingly interested, and that ended up 
resulting in the PhD.
    So my point is a couple of these. One, I'd like for you to 
comment on how we encourage the education program to stimulate 
these young people like I'm talking about, and then the other 
thing that you might also comment on, I really like the idea of 
the community colleges. It gives some of these individuals the 
opportunity to get a flavor for that kind of education without 
investing a lot of money, and then it also gives them the 
opportunity to decide, you know, what kind of engineer we want, 
or what kind of a degree we want. It gives them the exposure to 
that without having to make a lot of investment. So I guess my 
two questions are, how do we encourage the education system to 
do what I mentioned, and second the community college idea?
    Dr. McNutt. If I can make just two quick comments, the 
reason I'm a scientist today, and I know that this is a fact, 
is I went to a girls' school my entire life, so I didn't 
encounter anyone who told me that I couldn't do math and 
science until I got to college, and by that time I was so sure 
I was going to be a scientist that I said to that professor, 
well, what's wrong with you, if you don't think I can be a 
scientist? And--so--but the girls' school I went to, it's not a 
girls' school anymore.
    So this is why I think, for attracting minorities into the 
sciences, I'm really keen on supporting the historically black 
colleges and universities. I think that they will also provide 
that safe place for minority students to get involved in 
science and engineering without anyone telling them they're not 
supposed to do that, and their professors all look like them, 
and they can tell them, yes, you should be doing this, it's 
good for you.
    Dr. Gallagher. Let me add an optimistic note. So we tend to 
focus, when we see these gaps and these crises, that, you know, 
we have to reinvent our system of higher education, we have to 
look at how we do better. And, look, some of this is great, 
because we're going to innovate some new approaches. But we're 
stressed about this because the global competition's gotten 
really tight. And the reason it's tight is those countries are 
basically copying the U.S. system. So I just want to point out, 
you know, they're running up against us simply because they're 
doing exactly what we're doing, and they're trying to do 
everything the Americans do. I think that means we have to, you 
know, we have to get a little smarter.
    I--the one thing I was going to--just an observation, you 
know, I mentioned early on Sputnik. You know, one of the big 
moments in U.S. history when, as a country, we really focused 
on the role of science, and people getting excited, and there 
was remarkable investment that was made, but there was also a 
remarkable amount of passion and belief that came. That wasn't 
just because science was cool. I mean, a lot of us were excited 
because we either saw somebody in our lives who was a 
scientist, or we just thought it was really interesting, but 
there was a national call to serve, and it was a way where 
people believed they could contribute to their country.
    And I always go back to, you know, when I was at NIST, we 
had five of our scientists win Nobel Prizes, which was 
remarkable. It's not that big of an agency, and--but the untold 
story was all five of them stayed there. They could've 
quadrupled their salary going somewhere else. And I remember 
talking to them and asking, why did you stay? And they said, 
there's great problems, that's the scientist in them, great 
colleagues, and it was a chance to make a difference and serve 
our country. And I think that's something that our science 
policy can create that almost no one else can, is how is this 
vital to our national interests? How--because people want to 
make a difference.
    Dr. Khan. There's a common theme in what you've just heard, 
which is experiential learning. I think, if you actually expose 
a young person to the coolness of solving problems, regardless 
which they are, then all the other hard stuff are tools that 
they learn in order to do the cool stuff. But if the primary 
mission becomes, you're going to actually be learning all this 
hard stuff for the sake of learning it, I don't know anybody, 
really, who wants to do it.
    And I think, if I was to rethink the education, one of the 
things that I think we do much better in industry is we take 
these young graduates, and we put them onto real problems, and 
that becomes aspirational. Whether it's putting a man on the 
moon, or, in my current job, feeding the world's population of 
seven billion people, with a billion hungry, in a sustainable 
manner, so it doesn't take away from the next generation, or my 
new job, which is how do we make the billion plus people that 
are aging to stay healthy and functional in society, rather 
than being a burden on society? That problem will attract very 
bright minds, and I think we have to think experiential, goal-
oriented learning.
    Chairwoman Johnson. Thank you very much. Ms. Stevens?
    Ms. Stevens. Well, thank you so much. It's a real privilege 
to be in the room with you, Dr. Gallagher. We share both having 
served in the Obama Administration. I've long admired your 
leadership and work, particularly your leadership of NIST 
during the Recovery Act period when I was working at the 
Treasury Department for the President's Senior Counselor for 
Manufacturing Policy, when we just started to develop those 
manufacturing institutes that my colleague, Conor--
Representative Lamb mentioned.
    Dr. Gallagher, if you don't mind, could you just indulge me 
in listing off some of the Federal agencies that fund or 
support U.S. leadership in science and technology?
    Dr. Gallagher. That's pretty broad. It's--we're quickly 
getting to the point where--which ones don't? But the ones that 
are very university facing have the large extramural programs, 
so clearly our agricultural department, the National Science 
Foundation, the Department of Energy, the Department of 
Defense. NIST has a small program. USGS has a program. I--
there--NIH. Yes, how could somebody from Pitt forget NIH? So 
it's really becoming ubiquitous, and I think that's because 
every single mission in the government is becoming quite 
centered around know-how, and knowledge, and science, and 
technology.
    Ms. Stevens. So would it be fair to say that the Department 
of Energy (DOE) has played a pretty prominent role in 
propagating 3D printing? Would it be fair to say that the 
Defense Advanced Research Projects Agency has played a pretty 
big role in putting forward the initial research that led to 
the development of the Internet that NASA, NSF, and DOE also 
played a role in proliferating the usage of the Internet?
    Dr. Gallagher. Without question.
    Ms. Stevens. And would it be fair to say that the--to the 
best of your knowledge that the top five performing stocks by 
market capitalization in this country are Apple, Amazon, 
Microsoft, Alphabet, Google, and Facebook? Yes. So, Dr. McNutt, 
are--based on some of your global leadership, and work 
internationally, are you aware of any conversations or debates 
in Germany, South Korea, China, in which their governments 
debate the merit of investing in science and technology 
broadly?
    Dr. McNutt. No.
    Ms. Stevens. Thank you. And, Dr. Khan, if the U.S. 
Government were to stop investing in basic research, what 
organizations would fill the capacity of this role?
    Dr. Khan. At present time we don't have an alternative.
    Ms. Stevens. Thank you. I yield back the remainder of my 
time.
    Chairwoman Johnson. Thank you very much. Mr. Balderson?
    Mr. Balderson. Thank you, Madam Chair, and thank you, 
panel, for being here. Couple questions, and Dr. Khan, you're 
going to be my last one, so just heads up, because what you 
just said was probably one of the best things that's been said 
here today. It was about giving them the environment of what's 
out there, other than just sitting behind a desk the whole time 
and being educated. But--hands-on is, I guess, the word for it.
    I'm going to follow up with my colleague from Northeast 
Ohio. I'm from Ohio also. I represent a pretty unique district. 
It's urban, suburban, and it's rural. My home county is 
Muskingum County, and it's in Appalachia. I actually call it 
the Shaker Heights of Appalachia. It's the largest populated 
county in the State--or the region of Appalachia. But going 
back to, you know, the need that's there, and getting left 
behind, you know, those folks feel like they're being left 
behind. It's just there's no interaction there. Right now, in 
that region of the State of Ohio, right now there's some 
negotiation going on with the petrochemical plant that's going 
to provide 4 to 6,000 construction jobs. It's a company called 
PTT. It's part of the shale play that's happening there. Shale 
is right across the river, in Pennsylvania.
    But my concern is--and it's everybody's concern, and we 
have community colleges, and we have 4-year colleges working, 
trying to get this figured out, this workforce demand. What can 
we do to ensure that these rural and more lower urban 
communities get the same access to this? And emphasize a little 
bit more, I mean, what you said for Representative Gonzalez. I 
just--I want to push a little bit more for ideas.
    Dr. Gallagher. So, as I said, one of the concerns I've 
always had is that we get mesmerized by just one segment of 
the--let's call it the innovation ecosystem that needs to 
happen. So, take your example, where you're looking at the 
shale energy, and looking now at either petrochemical, or 
crackers, and looking at polyethylene production. So that's 
great. I mean, that is a natural advantage for that region in 
the sense of you have a low-cost energy infrastructure, and 
some assets that nobody else has. It's necessary, but it's not 
sufficient. I mean, that can be an entirely extractive economy. 
You can take that stuff out, and take it somewhere else, to do 
what industry would call the value add.
    And so the goal really has to be--and I think this is 
actually something we can do much better. We have focused on 
the jazzy part of this, you know, the high-tech company, and 
the idea--you think about the Amazon discussion in New York. 
You know, the reason there was this big pushback is I think 
people are skeptical that that one employer, that one piece of 
technology, will spill over and create an economic activity 
that benefits the region.
    In manufacturing, the regional and--the rural and suburban 
areas, including through Ohio and Western Pennsylvania, they 
were drivers of the middle class employment wave, and that 
happened largely not at the very top research intensive OEMs 
(original equipment manufacturers), or at the base, it happened 
through the supply chain. The U.S. supply chain, I believe, is 
really in trouble right now. It's not seeing the technology 
benefits that the large companies are investing, and you can't 
just assume it's going to come up from those base activities.
    So one of the reasons I'm excited about the manufacturing 
institutes is that you're pulling together a sector, that they 
worked because you've got essentially a consortia of like-
minded companies that share something. That consortia can take 
ownership over that supply chain problem, and look at making 
sure that those investments, that capital, are going into those 
plants. That's going to--that's what drives the employment. 
That's what's going to shape the demand for community college 
and others to step up and try to, you know, retrain people to 
take those jobs. This is an area that, you know, has a habit of 
working hard, and knowing what these jobs are like. You just 
need to be able to match up, and make sure that these 
technology innovations--we don't just assume it'll happen, but 
we do it with some intent.
    Mr. Balderson. OK. All right. Thank you. Dr. Khan, as I 
said, I'll wrap up with a question to you. What you did is 
something that I've done in the past, and that's--take any 
business owner who is personal friend, and, you know, telling 
me how he can't find the workforce out there, young kids. And 
I, you know, I'd make the suggestion, have you ever reached out 
to a vocational school, have you done this, or a community 
school? Well, no, I haven't. I didn't know I could. I mean, 
people say you can't have kids come into the workforce, but, 
you know, to me, and my own background, I wanted to do what I 
was working for. I wanted to actually do a touch and feel and 
do that.
    And I had the vocational school reach out, we picked six 
kids, and three of kids ended up getting jobs at this facility. 
So I couldn't agree with you more, as far as getting them out 
there. Is PepsiCo.--I mean, do they take that real world 
experience, and take them out there, and let them see what the 
end result's going to be?
    Dr. Khan. Sorry. We expose them as early as--even before 
they start college. We'll take high school students, and give 
them--because one of the things I'm competing for this talent 
is with these high visibility, sexy industries, and then you 
say, hey, how about food and beverage production and 
agriculture? It's not as sexy as working for the latest AI 
company, but yet the impact on the world, and the impact on our 
country, is profound. It's--every one of us consumes foods and 
beverages every day, and so getting them exposed is part of 
that.
    But I want to just also emphasize one other thing. 
Manufacturing, as we all know, is going through a 
transformation, and, with that, as our efficiency and 
productivity is going up, it is uncoupled from job creation. 
Let's not confuse that. Because as automation has come in, as 
AI has come in, we can still have that rural plant, but it's 
not going to have as many employees, and in fact it's a log 
scale difference. Where we need to train is the human 
interface, where machines aren't going to do--in order for us 
to remain competitive we need--so most of the jobs that are 
coming are actually coming at either the human/machine 
interface, or the human/human interface. And a lot of our 
existing employees from the past, in our education system, was 
training people to do jobs that actually are becoming obsolete, 
but being replaced by different jobs.
    So I want to really still emphasize that we have to think 
about retraining, and retraining a whole different skillset. 
That was not the case when I was coming out of high school and 
college. It was a different generation.
    Chairwoman Johnson. Thank you very much.
    Mr. Balderson. Thank you.
    Chairwoman Johnson. Mr. Tonko? I'm sorry, Mr. Casten?
    Mr. Casten. Thank you, Mr. Tonko. Thank you, Madam Chair. 
Thank you to the panel. Dr. Khan, I'm sitting here chuckling at 
your comment about how none of us are actually doing the job we 
trained for. Twenty-five years ago I was getting a master's 
degree in biochemical engineering, and I just want to say to 
the millions of people watching us on C-SPAN right now that you 
are, you know, sitting there doing computational thermodynamics 
and working on fermenters, you are transparently trying to 
primary me next season, I know it.
    On a more serious note, one of the things that has just 
sort of shocked me, you know, being a little bit away from that 
field now, I went down and toured Argon National Lab, that's 
just south of my district in Illinois, and their photon beam 
accelerator, and realizing that the way we do science has 
changed so much. You know, I used to take all day to do an 
experiment, which meant that I had to very carefully shepherd 
my time to design a careful experiment. And now, you know, it's 
orders of magnitude. You've got 96 wells at a time. It takes 
minutes. And I was sort of saying to the scientists there that 
you've changed the way that this works, because now you do 
experiments and work backward to find out what's the hypothesis 
of why that well lit up, as opposed to do I have a hypothesis 
in advance?
    And that's not unique to fields that I have any experience 
in, but it does strike me that the--we're not paced by our 
ability to create data, we're paced by our ability to process 
and understand that data. And so my question for any, or all, 
of you is what are we doing, or could we be doing more of, to 
maintain a lead in the kind of computational science and 
engineering that is driving so many of these fields, and is 
growing it at rates that are hard for me to fathom?
    Dr. Khan. Can I--I'm going to be provocative to my 
scientific colleagues. The education that most of us, as 
scientists, historically received is somewhat--how to condense 
a problem to the minimal number of variables, and solve for 
that one variable. And the ideal experiment, regardless of 
discipline, was you could control every variable, except for 
the one that you wanted to study. That's about as non-real 
world as it gets. And that was done because that was the only 
way we, as humans, could understand the results of that 
experiment.
    We now live in a world with computational capabilities, and 
some of the--and, in fact, into the future, when we get into 
quantum computing, which your former institution is driving, 
we're going to be--or these machines are going to be designing 
experiments that they can interpret for us. We can't even start 
to imagine the number of variables in that real world 
environment. So if you look at that, then are we really now 
training and thinking about these real-world global problems 
with scientific rigor and approach, which is very different 
than the regressional approach that we were all educated in? 
And I think all three of us are of that generation.
    Dr. McNutt. I'll just add that one of the hottest areas 
right now, where students are being snapped out of 
universities, is any student who is very well versed in dealing 
with big data, with statistics, with complex systems, and with 
complex modeling. And it almost doesn't matter what they were 
trained on. If they are comfortable doing that, they are in 
demand. And we have undertrained in the past in the statistical 
area and the complex systems.
    Mr. Casten. Yes, I can vouch. I sat for a long time on the 
advisory board of Dartmouth College's engineering school, where 
I went, and you can tell what the sexy degrees are. I want to 
just, with the little bit of time I have left, and--pick up on 
a bigger issue, and sort of to some points that Dr. Gallagher 
raised in your written testimony. All of you, in some capacity, 
have mentioned this shift, proportional shift, away from 
publicly funded research to privately funded research, and the 
difference between basic and implied science that that implies.
    I want to talk about how we think about that with 
international IP, China specifically, but we, up here on this 
panel, have certain jurisdictional controls to protect our 
private data when it's produced in public entities or on our 
shores. As we get to a world where research is being done by 
the private sector, by increasingly transnational corporations, 
I'm not sure we have the tools, and I just welcome your 
thoughts, on how we actually protect national IP in a world of 
global information.
    Dr. Gallagher. Well, I, you know, my view, and I think this 
was the case on the cyber commission, we were talking about 
this, one of the reasons that technology is so disruptive is 
that it was intrinsically global. So it was moving information 
around, you know, beyond borders, and moving into realms where 
there's no law enforcement reciprocity. These issues of IP 
spillage have to do with the fact that they're difficult to 
enforce, that international standards of behavior are not 
uniform or applicable----
    Dr. McNutt. You know, our ethics.
    Dr. Gallagher [continuing]. Ethics. I think that the only 
way you have a--look, we connected every person on the planet 
with a--with computing capability and a light speed 
communication tool, and we're--now we're grappling with the 
implications of that. And some of that will have to be done 
through the hard work of global engagement, and hammering out 
those kind of international norms, that kind of law enforcement 
structure, those kind of rules of the road.
    The flipside is, I think, you know, the local part. What 
is--until that happens, when there's some of this Wild West 
happening there, how do we continue to protect ourselves the 
best we can against some of the most damaging and adverse 
impacts, and that's where companies and individuals, the 
government, are looking at trying to protect identifiable 
critical assets. But until we tackle the broader issue, I think 
this is always going to feel like we have it inside out.
    Mr. Casten. Thank you.
    Chairwoman Johnson. Thank you very much. Now, Mr. Tonko.
    Mr. Tonko. Thank you, Chairwoman. Thank you to all of our 
witnesses for joining us today to discuss this very important 
topic. As Dr. McNutt highlighted in her testimony, it has been 
more than 15 years since the National Academy has made clear 
that America's commitment to research is critical to our 
ability to lead and compete in science and technology. 
Unfortunately, over the last decade, many of America's leaders, 
possibly including Members here today, failed to heed that 
advice and keep pace with other nations.
    As the rest of the world continues to take extraordinary 
steps to drive innovation in their own economies, the previous 
Republican majority in Congress put America on the wrong track, 
in my opinion, with major areas of vital research not 
adequately funded. It is time to correct our course and restore 
our commitment to invest in innovation, in research, in 
development, advanced manufacturing, and certainly in our STEM 
workforce. In particular, we have an opportunity to address the 
climate crisis through the United States leadership, and a 
commitment to research and development of the next generation 
of climate mitigation and prevention tools.
    So, Dr. McNutt, you urged that we, and I quote, ``simply 
cannot afford to let the United States leadership in science 
slip away.'' That's your quote. What data have been looked at 
by the Academies to determine that we are already falling 
behind?
    Dr. McNutt. So the data that's most complete at this point 
is the data from the National Science Foundation, the science 
and technology indicators. As I said in my opening statement, 
we've got leading indicators and lagging indicators. The 
lagging indicators, we have to be careful about putting too 
much weight on those because, by the time that we start 
slipping in them, it's too late. We've already lost.
    What I think is the most important leading indicator is to 
what extent do the very top students, anywhere in the world, 
want to come here to get their degree, because we have the best 
university system, and we have the best innovation system that 
they want to enter because it is the very best opportunity for 
them to pursue their careers? And we're already seeing a 
falling off in applications for graduate school from the deans, 
and we're already seeing that their opportunities are better 
elsewhere.
    Mr. Tonko. Thank you. And then federally funded research 
through the SBIR (Small Business Innovation Research) program 
generated some two-thirds of the components inside the 
smartphones we're all carrying today. And U.S. research has 
launched the Internet, and transformed clean energy 
technologies, and catapulted numerous other thriving American 
industries. Why, in your opinion, is Federal funding such an 
important driver for research to create world changing 
technology?
    Dr. Gallagher. Well, one of the main reasons is it can take 
risks that the private sector simply wouldn't take yet. So by--
that's a classic market failure argument, but they can take a 
very high risk, but very high payoff, chance, and look at 
that--at a problem in a way that I think would be very 
difficult for a company to justify doing.
    Dr. Khan. Can I just compliment Dr. Gallagher's comment on 
that, and maybe add to it, because it isn't just the risk. 
Industry, and no one company, has the resources and the talent 
pool that the collective workforce of the academic institutions 
has. And so the mobility of knowledge that occurs within--
between academic institutions, the collaboration that occurs, 
allows a much broader and deeper workforce. That won't happen 
in industry. I don't care how big a company is, it doesn't have 
the resources of a complete research university faculty.
    Mr. Tonko. Um-hum.
    Dr. Khan. And--so funding that allows not only the risk-
taking, but actually the brainpower to solve the problems in 
its components. What industry does very well is integrate those 
components. I think you gave a great example. The components of 
that smartphone were invented by government-funded research, 
but that government-funded research didn't develop the phone. 
That was the integration. And what industry does very well, and 
the best in the world in--is the U.S., is that integration. 
That partnership, in my mind, is component/integration. 
Together it's invention/innovation, as I described earlier.
    Mr. Tonko. If I might just get one more quick question in, 
Chairwoman? Can you talk, Dr. McNutt, about how the Academies 
view the intersection of research and climate change?
    Dr. McNutt. Yes. So the Academies view is that research is 
essential so that we can make predictions about our future. 
And, right now, we can do a certain amount of attribution for 
the current state, but let's ask a simple question about just 
investment. Without further investment in understanding our 
climate future, more modeling, more understanding of how 
systems work, I couldn't confidently answer the question for 
you whether the current limited crops we have that produce--the 
75 crops that basically feed the world, whether in 50 years 
those crops, in their present form, will still all be viable.
    Mr. Tonko. Thank you. Well, as the recently appointed Chair 
of the Environment and Climate Change Subcommittee, we look 
forward to working with your organizations to see what we can 
produce, in terms of research. So, thank you. With that, I 
yield back, and thank you, Madam Chair.
    Chairwoman Johnson. Let me thank you, Dr. McNutt, Dr. 
Gallagher, and Dr. Khan. I'm so grateful, we are grateful, that 
you've come and spent your afternoon with your phenomenal 
knowledge that you've shared with us. We appreciate you being 
here.
    And I want to say that the record will remain open for 2 
weeks for additional statements from the Members, or any 
additional questions to the Committee that they might ask you. 
So we thank you very much, and the Committee hearing is 
concluded.
    [Whereupon, at 4:57 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
